Office of
Inspector
General
Semiannual
Report to
the Congress

April 1, 1985 to
September 30, 1985


November 1, 1985
FOREWORD
This report, which was prepared in accordance with the In-
spector General Act of 1978, summarizes Office of Inspector
General activity over the 6-month period ending September 30,
1985. In order to facilitate its use by the Congress and Agency
management, the report is organized based on the major func-
tional areas of the General Services Administration.
Within each of these functional areas, the report shows that
the Office of Inspector General and Agency managers are mak-
ing important progress in improving the economy, efficiency,
and integrity of General Services Administration operations.
The report also shows a commendable record of Office of In-
spector General productivity, in the face of continuing personnel
cutbacks necessitated by Fiscal Year 1986 budget considerations.




CHARLES R. GILLUM
Acting Inspector General

October 31, 1985
INTRODUCTION AND OVERVIEW
A. Introduction                                              Federal Supply and Services

This report, submitted pursuant to the Inspector Gen-        OIG coverage of the Office of Federal Supply and Serv-
eral Act of 1978, chronicles the activities of the General   ices (FSS) focused on multiple award schedule contracts
Services Administration (GSA) Office ofInspector Gen-        and management reviews of GSA's supply network.
eral (OIG) between April 1, 1985 and September 30,           Many of our internal reviews, although regional in scope,
1985. It is the fourteenth Report to the Congress since      identified findings affecting supply operations nation-
the appointment of GSA's first Inspector General.            wide. Notably, management is in the process of
                                                             addressing:
                                                               • The need for additional policy direction regarding
                                                                 the mission and operations of Customer Supply
B. Overview                                                      Centers.

This report summarizes OIG activities during the period        • Inaccurate product weight markings that were re-
April 1, 1985 through September 30, 1985. It has been            sulting in excessive freight costs on GSA's outgoing
structured to correspond with the major functional ele-          supply shipments.
ments of GSA.                                                Actions by management and the Department of Justice
                                                             on other audits and investigations resulted in:

1. Audit and Investigative                                     • The recovery of $286,233 due to a contractor's vi-
                                                                 olation of GSA's price reduction clause.
    Coverage of GSA Programs
                                                               • A $125,800 civil settlement agreement with an FSS
                                                                 contractor that allegedly violated the False Claims
Public Buildings Service                                         Act.
                                                               • Successful criminal prosecution of a firm and its
The OIG devoted 45 percent of its resources this period          president for submitting false statements to the
to audits and investigations within the Public Buildings         Government.
Service (PBS). This allocation reflects both the size and
scope of PBS programs.                                       Detailed information on these and other activities is
                                                             presented in Section III.
Some of the significant OIG audits issued this period
assisted GSA managers in taking action with respect          Information Resources Management
to:
  • Excessive tax escalation payments resulting from         The OIG's coverage of the Office of Information Re-
    the standard tax escalation clause in GSA leases         sources Management (OIRM) continued to focus on its
    and local taxing practices.                              contracting function, particularly the multiple award
                                                             schedule program. This emphasis stems from recogni-
  • A wide range of improvements needed in the
                                                             tion of the fact that the Government is the major pro-
    buildings management program in one GSA region
                                                             curer of computer equipment and accessories in the
    (discussed in Section VIII, OIG Prevention
    Program).                                                marketplace today.
                                                             As a result of joint audit and investigation, three major
  • Design deficiencies in a Federal building relating
                                                             civil settlement agreements in the amounts of $499,999,
    to lighting and heating systems.
                                                             $560,000, and $1,103,769, respectively, were reached
  • Inadequate construction inspection services ob-          with OIRM contractors this period for alleged violations
    tained under contract.                                   of the False Claims Act. In addition, other significant
                                                             OIG audits advised management of:
  • Potential cost avoidances of $2.2 million on a lease
    escalation proposal.                                       • Serious contract administration, task order pro-
                                                                 curement, and personnel management problems in
In addition, four audit reports identified leakages of           a regional Contract Services Program.
polychlorinated biphenyls (PCBs) from electrical trans-
formers. The newly appointed GSA Administrator has             • A potential cost avoidance of $8 million on a pro-
initiated an aggressive nationwide program to identify,          curement action for the purchase and rental of com-
inventory, and inspect all transformers containing PCBs,         puter equipment and related software and services.
and ensure that leaking transformers are properly con-           The contracting officer successfully negotiated the
trolled. In December 1985, the OIG will examine the              contract and obtained pricing concessions valued
results of the Agency's PCB control program.                     at $8 million.
Detailed information on these and other activities is        Detailed information on these and other activities is
presented in Section II.                                     presented in Section IV.
     Other GSA Coverage                                                        • 29 case referrals accepted for criminal prosecution
                                                                                 and 6 case referrals accepted for civilUtigation;
     Within the remaining programs and operations of GSA,                      • 30 indictments/informations/complaints on crimi-
     the OIG issued 20 internal and contract audit reports                       nal and civil referrals;
     presenting findings relative to stockpile disposals, real
     property sales, imp res! funds, cash management, com-                     • 33 successful criminal prosecutions;
     mercial audit services, and GSA's use of the General                      • 3 judgments and 6 settlements on civil referrals;
     Supply Fund. In response to issues raised in two of the
     more noteworthy internal audits:                                          • 11 contractor suspensions and 57 contractor de-
                                                                                 barments on administrative referrals;
       • Management took action to continue the commer-
         cial transportation audit program.                                    • 35 reprimands, 16 suspensions, and 20 termina-
                                                                                 tions on administrative referrals involving GSA
       • Procedures are being developed to ensure full and                       employees;
         prompt reimbursements to the General Supply
         Fund.                                                                 • 13 Inspector General subpoenas; and
     Detailed information on these and other activities is                     • 371 legislative initiatives and 159 regulations and
     presented in Section V.                                                     directives reviewed.
                                                                             Detailed information on these and other activities is
     2. OIG Accomplishments and                                              presented in Sections VI and VII.
        Productivity
                                                                             OIG Productivity
     The OIG tracks its accomplishments both on an aggre-
     gate basis and, in critical areas of our performance, on                As noted above, in critical areas of our performance we
     the basis of actual staffyears incurred. Calculating ac-                compute OIG productivity based on actual staffyears-
     complishments on this latter basis results in productiv-                full-time equivalent (FTE) positions-incurred. Since
     ity data that are less subject to fluctuating staffing levels.          these data are less subject to fluctuating staffing levels,
                                                                             they are an excellent mechanism for measuring OIG
     Overall OIG Accomplishments                                             performance over time.
     OIG accomplishments this period included:                               The following table presents these productivity data for
                                                                             Fiscal Years 1982, 1983, 1984, and 1985. The table shows
       • 335 audit reports;                                                  that OIG productivity, while lower this year than in
       • $59,997,846 in recommendations for more efficient                   Fiscal Year 1984, was consistent with the general trend
         use of resources and $17,450,715 in recovery                        toward increased productivity that has been building
         recommendations;                                                    since Fiscal Year 1982. We attribute the declines from
                                                                             Fiscal Year 1984 to a variety of factors, including: the
       • $22,602,775 in management commitments to more                       dislocations and inefficiencies that are the inevitable
         efficiently use resources;                                          result of our efforts to reduce OIG staffing through at-
                                                                             trition to meet Fiscal Year 1986 funding levels (see Sec-
        • $15,994,166 in management commitments to re-
                                                                             tion I, Budget Issues); changes in management empha-
          cover funds, court-ordered recoveries, and inves-
                                                                             sis during Fiscal Year 1985; and, most importantly, Fiscal
          tigative recoveries;
                                                                             Year 1984 output increases reflecting some exceptional
        • 288 investigative cases opened and 343 dosed;                      audit and investigative results.



                            Productivity Factor                               FY 82          FY 83       FY 84         FY 85

           Total costs recovered/avoided* per operations
             employee ..................................                    $242,252       $352,910    $522,688      $444,152
           Recommended cost avoidance and recovery per
             auditor .......................... " ........                  $498,533       $587,875    $1,357,104    $601,564
           Audit reports per auditor. ......................                    2.4              3.2      3.1           2.7
           Referrals (criminal, civil, and administrative) per
             investigator ................................                      2.9              5.9      8.4           7.6
           Criminal referrals per investigator ...............                  0.8              2.2      2.3           1.9
           Employee actions (reprimands, terminations,
            suspensions, and demotions) per investigator ..                     0.9              1.2      1.6           1.5

     'Includes management commitments, court-ordered recoveries, and investigative recoveries.


ii
The OIG achieved a return of $7.39 for every $1 budg-
eted to OIG operations in Fiscal Year 1985. Returns          • Development of a practical ethics brochure for GSA
achieved during Fiscal Years 1982, 1983, and 1984 were         employees that will be published shortly.
$5.61, $6.65, and $9.93, respectively.                       • Issuance of a second Hotline poster to sustain in-
                                                               terest in the message of the Hotline.
3. Prevention Activities
                                                             • Completion of 25 pre award advisory reviews of
As detailed in Section VIII, the OIG's program to pre-         leases involving annual rentals in excess of
vent fraud, waste, and mismanagement encompasses a             $200,000.
wide variety of activities. Highlights of our efforts dur-   • Integrity Awareness Briefings for 817 GSA
ing the period include:                                        employees .
  • Reviews of 14 buildings management field offices,        • Receipt of 411 Hotline calls/letters and referral of
    8 of which were performed concurrently in one              139 of these complaints for further action.
    GSA region.




                                                                                                                      iii
TABLE                           Feo                          ENTS
                                                               Page                                                 Page
INTRODUCTION AND OVERVIEW ....... .                                      SECTION VI-STATISTICAL SUMMARY
                                                                         OF OIG ACCOMPLISHMENTS ............ 20
REPORTING REQUIREMENTS ............ vi
                                                                           A. OIG Accomplishments ................ 20
SECTION I-ORGANIZATION, STAFFING,                                          B. Summary Statistics .................... 20
AND BUDGET. . . . . . . . . . . . . . . . . . . . . . . . . . ..    1
                                                                         SECTION VII-REVIEW OF LEGISLATION
  A. Organization ...... . . . . . . . . . . . . . . . . . ..       1
                                                                         AND REGULATIOl"'S ..................... 27
  B. Office Locations. . . . . . . . . . . . . . . . . . . . . ..   1
                                                                          A. LegislationJRegulations Reviewed ...... 27
  C. Staffing and Budget. . . . . . . . . . . . . . . . . . .       1
                                                                           B. Significant Comments ................. 27
  D. Budget Issues..... .. . . . . .. ..... . . ....                1
  E. Personnel Issues. . . . . . . . . . . . . . . . . . . . . .    I    SECTION VIII-OTHER OIG ACTIVITIES ..            30
                                                                          A. OIG Prevention Program ..............       30
SECTION II-PUBLIC BUILDINGS
                                                                          B. OIG Management Initiatives ...........      31
SERVICE ..................................                          3
                                                                           C. Projects Sponsored by the PCIE ........    32
  A. Overview of OIG Activity........ .....                         3
  B. Significant Audits. . . . . . . . . . . . . . . . . . . ..     3
  C. Significant Preaward Audits . . . . . . . . . ..               5
  D. Statistical Highlights. . . . . . . . . . . . . . . . ..       6    APPENDICES
  E. Significant Audits From Prior Reports..                        6
                                                                         APPENDIX I-AUDIT REPORT
SECTION III-FEDERAL SUPPLY                                               REGISTER ................................ 36
AND SERVICES. . . . . . . . . . . . . . . . . . . . . . . .. ..      9
                                                                         APPENDIX II-DELINQUENT DEBTS ..... 49
  A. Overview of OIG Activity........ .....                          9
  B. Significant Audits and Investigations. ..                       9   APPENDIX III-SUMMARY OF OIG
  C. Significant Preaward Audits ...........                        11   PERFORMANCE DURING FISCAL
  D. Statistical Highlights ..................                      11   YEAR 1985 ................................ 50
  E. Significant Audits From Prior Reports ..                       12
SECTION IV-INFORMATION RESOURCES
MANAGEMENT .......................... 13                                 LIST OF TABLES
  A. Overview of OIG Activity ............. 13
                                                                         1. Summary of OIG Audits .................      21
 B. Significant Audits and Investigations ... 13
  C. Significant Preaward Audits ........... 14                          2. Resolution of OIG Audits ................    21
                                                                         3. Resolution Decisions on OIG Audits ......    22
  D. Statistical Highlights .................. 14
  E. Significant Audits From Prior Reports .. 15                         4. Summary of Contract Audit Settlements ...    23
                                                                         5. Investigative Workload ..................    24
SECTION V-OTHER GSA COVERAGE ....                                   17   6. Distribution of Cases Opened This
  A. Overview of OIG Activity .............                         17      Period ..................................    24
  B. Significant Audits .....................                       17   7. Summary of OIG Subject Referrals ........    25
  C. Statistical Highlights ..................                      18   8. Summary of Criminal and Civil Actions ...    26
  D. Significant Audits From Prior Reports ..                       19   9. Criminal and Civil Recoveries ............   26




                                                                                                                              v
     REPORTING REQUIREMENTS
     The table below cross-references the reporting require-    No. 96-829 relative to the 1980 Supplemental Appro-
     ments prescribed by the Inspector General Act of 1978      priations and Rescission Bill is also cross-referenced to
     to the specific pages where they are addressed. The in-    the appropriate page of the report.
     formation requested by the Congress in Senate Report




                                              Source                                                   Page

          Inspector General Act
          1. Section 4(a)(2)-Review of Legislation and Regulations .................... .               27
          2. Section 5(a)(1 )-Significant Problems, Abuses, and Deficiencies ............ .         3,9, 13, 17
          3. Section 5(a)(2)-Recommendations With Respect to Significant Problems,
             Abuses, and Deficiencies ............................................... .            3,9, 13, 17
          4. Section 5(a)(3)-Prior Recommendations Not Yet Implemented ............. .             6,12, 15, 19
          5. Section 5(a)(4)-Matters Referred to Prosecutive Authorities ............... .             24
          6. Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where Information
             Was Refused ......................................................... .             None This Period
          7. Section 5(a)(6)-List of Audit Reports .................................... .              36
          Senate Report No. 96-829
          1. Resolution of Audits ................................................... .                 21
          2. Delinquent Debts ...................................................... .                  49




vi
SECTION I-ORGANIZATIO , STAFFING,
ANDBUDGET
Pursuant to the Inspector General Act of 1978, an Office of
Inspector General (OlG) was established within the General         c.    Staffing and Budget
Services Administration (GSA) on October 1, 1978. As currently
configured, the OlG consists of four offices that function coop-   The approved Fiscal Year (FY) 1985 budget for the GSA
eratively to perform the missions legislated by the Congress.      OIG was approximately $21.3 million. Approximately
                                                                   $10.4 million was available for obligation during the
                                                                   reporting period.
                                                                   The OIG's approved staffing level is 444 full-time equiv-
                                                                   alent (FTE) positions. As of September 30, 1985, OIG
A. Organization                                                    staffing consisted of 371 permanent and 3 temporary
                                                                   employees.
The OIG utilizes a functional organizational structure
to provide nationwide coverage of GSA programs and
activities. As detailed in Section VIII, the OIG reorga-
nized this period in response to the findings of an in-            D. Budget Issues
ternal Management Consulting Group. The organiza-
tion now consists of:                                              This period, the OIG continued to reduce expenditures
                                                                   associated with staffing and related administrative areas
  .. The Office of Audits, a multidisciplinary unit                in order to meet the appropriations level set forth in the
     staffed with financial and technical experts who              President's proposed FY 1986 budget. In terms of per-
     provide comprehensive internal (management) and               sonnel resources, the OIG reduced staffing by 25 em-
     external (contract) audit coverage. Headquarters              ployees during the period, with overall staffing being
     divisions direct and coordinate the audit program,            reduced by a total of 48 employees or 12 percent in FY
     which is performed by the 11 field audit offices.             1985. In addition, the OIG instituted measures to re-
  • The Office of Investigations, an investigative unit            duce expenditures for office space, computer services,
    that manages a nationwide program to prevent and               training, external audit services, and equipment rentals.
    detect illegal and/or improper activities involving            The FY 1985 staff losses were largely responsible for
    GSA programs, personnel, and operations. Oper-                 significant decreases in OIG activity and output. Com-
    ations officers at headquarters coordinate and over-           pared to FY 1984 levels, the OIG:
    see the investigative activity of 11 field investiga-
    tions offices and 3 resident offices.                            • Issued 156 fewer audit reports;
  .. The Office of Counsel to the Inspector General,                 • Recommended approximately $205 million less in
     an in-house legal staff that provides opinions and                cost avoidance and recovery;
     advice on matters under OIG review. These attor-                • Opened 190 fewer investigations and closed 145
     neys also manage the civil referral system, review                fewer; and
     existing and proposed legislation and regulations,
     prepare OIG subpoenas as required, and assist in                • Referred for action 125 fewer criminal, civil, and
     litigation.                                                       administrative cases.
  .. The Office of Policy, Plans, and Management                   It now appears that further reductions may be required,
     Systems, a centralized unit that oversees the de-             since the FY 1986 funding levels tentatively approved
     velopment of OIG policies and plans, evaluates the            by the House and Senate are below the President's pro-
     operations of the other OIG components, provides              posed budget level. The House version provides for
     data systems support, and handles budgetary, ad-              $512,000 less, while the Senate version calls for $386,000
     ministrative, and personnel matters.                          less. The OIG's flexibility in accommodating such fur-
                                                                   ther budget reductions is limited by the staff-intensive
                                                                   nature of our budget and the cost-cutting measures al-
                                                                   ready implemented. The budget reductions would nec-
                                                                   essarily translate to additional staffing losses, which
B.. Office Locations                                               would lead to further decreases in OIG activity and
                                                                   output. We project, for example, that the House reduc-
The OIG is headquartered in Washington, D.C., at GSA's             tion of $512,000 could require the loss of as many as
Central Office building. Field audit and investigations            20 additional auditors and investigators.
offices are maintained in each of GSA's regional head-
quarters-Boston, New York, Philadelphia, Atlanta,
Chicago, Kansas City, Fort Worth, Denver, San Fran-                E. Personnel Issues
cisco, Auburn, and Washington, D.C. Resident inves-
tigations offices are located in Cleveland, S1. Louis, and         In light of the continuing staffing reductions, the OIG
Los Angeles. A resident audit office is located in San             intensified its efforts to enhance the skills and effec-
Juan, Puerto Rico.                                                 tiveness of the remaining staff. During this period, we      1
    implemented a concentrated program of training courses,    In total, OIG employees received 1,850 staffdays of
    conferences, seminars, and workshops directed toward       training during the period. In addition, OIG mid-level
    entry and mid-level staff members. Many were devel-        managers attended regional miniconferences held in Fort
    oped and taught using in-house expertise to avoid the      Worth, Texas and Boston, Massachusetts. These mini-
    substantial costs associated with outside training. The    conferences were designed both as training vehicles and
    body of in-house training expertise that has been es-      as a way to strengthen internal OIG coordination and
    tablished will become a critical training resource in FY   collaboration, by providing an opportunity for face-to-
    1986, when funds for outside training will be severely     face interaction among our regional staffs.
    limited.




2
SECTION II-PUBLIC BUlL I                                                                 GS SERVICE
The Public Buildings Service (PBS) manages much of the Fed-         tation and preliminary findings, as well as an audit guide
eral Government's real estate assets nationwide. Its responsi-      that can be used to test regulatory compliance at the
bilities extend from constructing, purchasing, and leasing space    regional level. We will resume auditing in early Decem-
for Government use to maintaining and protecting that space.        ber, focusing on the results of the Agency PCB control
In the second half of Fiscal Year 1985, the total available fund-   program, as well as following up on prior audit work
ing authority of the Federal Buildings Fund was almost $2           to ensure corrective actions have been taken. We intend
billion. During the same period, PBS obligated almost $1.6          to perform aiIdits in every GSA region as well as
billion of these funds.                                             headquarters.
Commensurate with this level of activity, the DIG devoted some      OIG investigators completed 164 cases involving PBS
63,500 direct stajJhours pursuing 501 audit and investigative       programs, operations, or employees. Most involved
assignments. These figures reflect 45 percent of total DIG direct   allegations of white collar crimes and employee
stafJhours and approximately 44 percent ofall work assignments.     misconduct.


A. Overview of OIG                                                  B. Significant Audits
   Activity                                                         This section summarizes significant internal audits dealing with
                                                                    PBS. Significant preaward contract audits are presented in Sec-
More than half of the audit reports issued this period              tion C.
by the OIG addressed PBS programs and activities. In
89 internal audit reports (over 7I percent of internal
GSA audits issued), we presented findings relative to
leasing, buildings management, energy, construction                 Excessive Tax Escalation Payments
management, fire and life safety issues, and concession
activities. In 88 contract audits (almost 43 percent of             A regional review of tax escalation payments identified
the GSA contract reports issued), the OIG recom-                    a significant problem relative to the standard tax clause
mended that approximately $18 million in Government                 in GSA lease contracts. Specifically, when a property is
funds be used more efficiently.                                     assessed below the market rate as of the lease date, the
                                                                    Government can make exorbitant tax escalation pay-
Relative to the leasing program, the OIG performed 25               ments over the term ofthe contract. On two leases alone,
preaward advisory reviews of leases involving annual                GSA will pay some $1.2 million in excess tax escalation
rentals in excess of $200,000 (see Section VIII, OIG                payments. In addition, GSA had 12 prospective leasing
Prevention Program). In addition, the OIG identified                actions under consideration on which low tax valua-
that the standard tax escalation clause contained in GSA            tions could have exposed the Agency to $465,000 in
leases, coupled with some local taxing practices, is re-            excessive tax escalation payments per annum.
sulting in exorbitant tax escalation payments for the
Government. PBS is initiating a national study of major             Basically, GSA's tax clause shifts the tax escalation bur-
taxing jurisdictions to determine the need to modify the            den to the Government. It provides that the Government
clause and/or institute internal controls as a result of            pays real estate tax increases over the amount paid by
our work.                                                           the lessor during the year in which the lease com-
                                                                    mences. Thus, the lessor's tax payments during the first
OIG prevention activities, contained in Section VIII,               year set the base for computing the Government's lia-
summarize OIG efforts in the buildings management                   bility for tax escalation payments beyond the base year.
area. This program, which is considered a vulnerable
area due to disclosures of fraud in the late 1970s, was             In one locality, taxing practices actually allowed a lessor
subjected to six audits of individual field offices, as well        to establish an artificially low base year. Here, lessors
as a consolidated regional review comprised of concur-              could appeal new assessments by using income data
rent audits of eight field offices. Overall, we concluded           from their existing leases and claiming economic hard-
that the program still requires strengthening.                      ship. Typically, the appeals resulted in substantial re-
                                                                    ductions in the assessments, thereby reducing lessors'
GSA management officials and the OIG placed high                    tax costs and lowering the tax base for the lease.
priority on fire and life safety issues this period, es-
pecially relative to Federal facilities housing trans-              Later, when succeeding leases were signed, the lessors
formers containing polychlorinated biphenyls (PCBS).                realized a full cash flow from the new lease rates,
In four audit reports issued this period, the OIG advised           alleviating the hardship. The city then acted to restore
management of leaking transformers in four GSA                      each property to the full assessment value and, because
regions.                                                            the base year was already established, GSA became li-
                                                                    able for tax escalation payments on both the normal
At the direction of the GSA Administrator, the Agency               increasing assessment rate and on the difference be-
initiated efforts to identify and plan for the repair/re-           tween the lower appealed tax liability paid by the lessor
placement of transformers nationwide. We are assisting              in the base year and the fair market assessment that
management in their review by providing documen-                    should have served as the tax base. Consequently, GSA's            3
    payments rose at a rate of 40 percent per year between       ficials on the finding. In addition, on July 5, 1985, the
    1980 and 1984, while, in a sample of buildings not           OIG issued an interim report recommending that the
    leased to GSA, tax assessments rose only at the rate of      Assistant Regional Administrator, PBS:
    26 percent per year.
                                                                   • Take immediate action to clean up the PCB spill at
    In our June 4, 1985 report, we offered seven recom-              the warehouse;
    mendations to the Commissioner, PBS, and one rec-
    ommendation to the Regional Administrator to correct           • Inspect the PCB leaks daily until the transformers
    these and other deficiencies identified in the report.           are replaced; and
    Some of the more significant recommendations included:         • Expedite action to replace leaking transformers.
      • Develop an alert system based on information gath-       Management concurred with the report recommenda-
        ered during the appraisal process to detect artifi-      tions and reported it had initiated cleanup and inspec-
        cially low property assessments at locations being       tion actions. The action plans for full implementation
        considered for lease, and transmit the information       are expected in October.
        to contracting officers for use during lease
        negotiations.

      • Where circumstances indicate that a property con-        Design Deficiencies at a Federal Building
        sidered for leasing has an artificially low property
        assessment, authorize the contracting officer to ne-     During a review of the mechanical maintenance contract
        gotiate a tax base that reflects what the assessment     at a Federal building, the OIG identified two major de-
        should be, given the assessment rates on compa-          sign deficiencies involving the lighting and heating sys-
        rable properties.                                        tems. As a result, the general office space, especially at
                                                                 desk top workstations, was inadequately illuminated,
      • Initiate, on a time-phased basis, a national study       and the heating system was wasting energy.
        of major taxing jurisdictions to determine if:
                                                                 The review found that 60 percent of the lighting prob-
        -circumstances exist that can contribute to exces-       lems could be attributed to a faulty design by the ar-
         sive tax escalation payments; and                       chitect/engineering (NE) firm; the remaining 40 per-
        -additional modifications to the tax escalation clause   cent resulted from contradictory GSA contract
         are required.                                           specifications for solid state electronic ballasts. Relative
                                                                 to the AlE firm, it utilized incorrect values when cal-
      • Take appropriate actions to ensure that any future       culating lighting levels and therefore did not specify the
        lease contracts at the 12 locations identified in the    correct number and type of fixtures. This, coupled with
        report do not result in Government losses due to         the contradictory specifications, resulted in a lighting
        inordinate increases in tax charges.                     system that provides 25 to 35 foot-candles of light, rather
    Management submitted responsive action plans. The            than the 50 foot-candles specified in GSA design criteria
    report was resolved on September 18, 1985.                   given to the AlE firm.
                                                                 The heating system inadequacies likewise resulted from
                                                                 faulty design by the AlE firm. Even though design cri-
    PCB Spin at Federal Warehouse                                teria called for an energy efficient building, the AlE firm
                                                                 did not specify a temperature set-back feature for pe-
    This period, the OIG initiated an evaluation of one GSA      riods when the building is unoccupied. Without this
    region's actions to comply with GSA and Federal reg-         feature, the heating system must be operated 24 hours
    ulations governing PCBs. PCBs, which are toxic, non-         a day in order to prevent serious damage to the boiler's
    biodegradable, and carcinogenic, were once widely used       fire box from condensation. We estimated that GSA is
    in electrical transformers.                                  therefore incurring an additional $14,000 per year in
                                                                 energy costs.
    As part ofthis review, the OIG inspected facilities hous-
    ing transformers containing PCBs. One inspection, con-       In the final report dated July 31,1985, we recommended
    ducted on June 26, 1985, identified a PCB spill (ap-         that the Assistant Regional Administrator, Office of
    proximately 14 ounces) in a Federal warehouse.               Public Buildings and Real Property:
    Closer review of the situation revealed that:                  • Determine if the AlE design firm was negligent
                                                                     during design and specification development, and
      • The regional field office was not performing the             seek damages or take other administrative action
        required monthly inspections of transformers at this
                                                                     as appropriate;
        facility. Therefore, it could not be determined when
        the spill had occurred.                                    • Evaluate alternatives for increasing lighting levels
                                                                     in office space and implement the most cost-effec-
      • The field office had been notified of minor leakages         tive option; and
        at this facility in January 1985, but did not perform
        the required daily inspections. Instead, the field         • Determine the cost effectiveness of retrofitting the
        office initiated actions to procure replacement              building heating system so it is energy efficient.
        transformers.
                                                                 Regional management concurred with the recommen-
    Because of the health and environmental threats arising      dations in our draft report. We are awaiting the action
4   from PCBs, the OIG immediately briefed regional of-          plans in response to the final report.
 Construction Inspection Services                            the short term, Central Office officials have expressed
                                                             doubt as to whether it will successfully defray Govern-
 As part of a multiregional review of construction in-       ment expenses over the long term.
 spection services obtained under contract, the OIG in-
 spected the ongoing construction of a Federal building      In addition, we found that the region did not always
 and parking garage. At the time of our inspection, the      perform or document feasibility studies on existing caf-
 project was approximately 50 percent complete.              eterias in accordance with prescribed Central Office pro-
                                                             cedures. Six of ten files reviewed did not contain a GSA
 We found that the inspection services agreement did         Form 1889, which is used to record survey findings. As
 not require contractor personnel to perform many of the     a result, the region had no method for evaluating the
 customary duties associated with the administration and     need, size, type, and number of food service and vend-
 inspection of major construction projects. We also found    ing machines required in a building.
 that GSA on-site and regional personnel, in attempting
 to perform many of these functions, did not accurately      In our September 25, 1985 report, we offered five rec-
 verify work-in-place; misidentified materials as com-       ommendations to regional officials to correct these and
 pleted work; paid for materials without proper invoices     other deficiencies. Two of the more significant recom-
 and verification; and paid for defective work without       mendations were addressed to the Regional Adminis-
 retaining appropriate amounts to assure such work           trator and the Assistant Regional Administrator, Public
 would be corrected. As a result, GSA had made pre-          Buildings and Real Property, respectively. They rec-
 mature payments and overpayments totaling $577,000          ommended that:
 at the time of our on-site inspection.                        • A position paper be prepared and forwarded to
                                                                 Central Office to document the advantages of the
 Our final report, dated July 30, 1985, recommended that         region's competitive fee concept and request a
 the Assistant Regional Administrator, Office of Public          waiver from Central Office procedures.
 Buildings and Real Property:
   • Reevaluate all major categories of work and adjust        • Feasibility studies be performed and documented
     payments to reflect actual "satisfactory" work-in-          as required by the Concessions Management
     place;                                                      Handbook.

   • Require the construction contractor to comply with      In reply to the draft report, management took exception
     invoice requirements of the contract for material       to both of these recommendations; we reaffirmed them
     payments;                                               in our final report. Management concurred with the
                                                             remaining three recommendations.
   • Train personnel on proper progress payment
     procedures;                                             We are awaiting action plans for implementation of the
                                                             report recommendations.
   • Ensure that future inspection service agreements
     comply with GSA guidelines in order to take full
     advantage of inspection personnel; and
   • Improve utilization of inspection services person-
                                                             c.    Significant Preaward
     nel on this project.                                          Audits
 Regional management concurred with all the report rec-
 ommendations. A responsive action plan was submitted        The OIG's preaward audit program provides information to
 on August 30, 1985 and subsequently accepted by the         contracting officers for use in negotiating contracts. The pre-
 OIG.                                                        decisional, advisory nature of preaward audits distinguishes
                                                             them from other audits.

 Administration of Cafeteria Contracts
                                                             $2.2 Million of Proposed Rent Increase
 An OIG review of one GSA region's administration of         Questioned
 ten cafeteria contracts found that the region deviated
 from Central Office procedures for calculating contractor   An OIG audit of a $1.9 million lease escalation proposal
 payments to the Government. Although the region con-        determined that the proposed escalation did not fully
 tended that it was granted approval for deviating from      comply with the terms of the lease. In our report dated
 procedures, we found no evidence to support this            July 17, 1985, we advised the contracting officer that
 contention.                                                 the proposal included operating costs not subject to es-
                                                             calation and did not credit the Government for direct
  The region employs a competitive fee method, based on      reimbursements. We further advised that using more
  a fixed annual operating fee (independent of gross rev-    current cost data and historical rates (rather than esti-
  enue) plus a percentage of monthly gross revenues, to      mates) yielded significantly lower figures. In total, we
  calculate contractor payments. Central Office proce-       recommended adjustments equaling some $2.2 mil-
  dures require calculation of monthly fees equal to one     lion-meaning that GSA's total rent payments over the
. and one-half percent of gross operating revenues to de-    5-year period covered by the proposal should be
  fray Government expenses for depreciation of equip-        $286,270 less than paid over the previous 5-year period.
  ment, heating, lighting, etc. While the regional method
  has yielded higher revenues to the Government over         Negotiations with the lessor are currently underway.              5
    ,1.3 Million Avoided on Contractor Claim                          rate overhead, extended equipment, extended form-
                                                                      work, and wage escalation.
    The OIG audited a contractor claim for increased costs            On April 12, 1985, the report was resolved. Due to the
    allegedly due to Government-caused delays on the con-             efforts of the contracting officer, assisted by General
    struction of a Federal building. The contractor claimed           Counsel, management made a commitment to avoid $1.3
    that change orders extended the contract work period              million.
    by 486 days, resulting in increased costs of $3,175,856.
    In our July 29, 1983 audit report, we advised the con-
    tracting officer that costs contained in the contractor's         De Statistical Highlights
    proposal were overstated and/or unallowable. Recom-               The following table compares OIG activity and accom-
    mended reductions of $2,578,290 primarily involved                plishments within PBS to the overall GSA totals for the
    the following cost categories: extended job and corpo-            period.




                                     Activity                                           PBS                    All GSA

          Audn Reports issued ................................ .                       177                       330
          Recommended Cost Avoidance ...................... .                      $19,285,211               $59,969,230
          Recommended Cost Recovery ....................... .                         $579,737               $17,450,715
          Management Commitments to Avoid Costs ............ .                     $10,459,831               $22,602,775
          Management Commitments to Recover Funds ......... .                       $1,535,541               $14,708,636
          Percentage of Recommended Cost
            Avoidance Agreed to by Management ............... .                          55%                       56%
          Percentage of Recommended Cost
            Recovery Agreed to by Management. ............... .                         100%                       98%
          Unresolved Audits Older Than 6 Months (Excluding
            Preawards) ...................................... .                            3                        4
          Implementation Reviews Finding
            Unimplemented Recommendations ................. .                             1                         1
          New Investigative Cases ............................ .                        145                       288
          Criminal Referrals (Subjects) ......................... .                      64                       147
          Civil Referrals (Subjects) ............................ .                       9                        19
          Administrative Referrals (Subjects) .................... .                    171                       305
          Suspension/Debarment Referrals (Subjects) ........... .                        24                        66
          Indictments/Informations/Complaints .................. .                        7                        30
          Successful Criminal Prosecutions ..................... .                       11                        33
          Civil Settlements/Judgments ......................... .                         1                         9




    E.. Significant Audits From                                       1. Unresolved Significant Audits
        Prior Reports
                                                                      Inspection of the Lease Construction of a
     Under GSA's audit resolution system, the DIG is responsible      Laboratory Facility
    for ensuring resolution of audit recommendations, while the
    Office of Audit Resolution, Office of Policy and Management       Period First Reported: October 1, 1982 to March 31, 1983
    Systems, is responsible for ensuring implementation of resolved
    audit recommendations. That office therefore furnished the sta-   This March 31, 1983 review disclosed that inadequate
    tus information on implementation presented herein.               contract administration and a lack of technical input in
                                                                      the conceptual, design, and construction phases of a
    Fourteen audits highlighted in prior Reports to the Congress      laboratory facility has resulted and/or will result in Gov-
    require action by PBS management before they are fully im-        ernment losses of over $1.5 million. As of September 30,
    plemented. TWo reports are unresolved, four are not being im-     1985, this audit was still unresolved.
    plemented in accordance with established milestones, and the
    remaining eight are being implemented in accordance with es-      Tvvelve of the 18 recommendations in the report have
    tablished milestones.                                             been resolved; however, formulation of action plans on


6
the remammg recommendations had been deferred                not responsive. On July 31, 1985, the OIG recom-
pending the outcome of Grand Jury proceedings. These         mended, through the Office of Audit Resolution, that
recommendations had been removed from the audit res-         the region file a new action plan. As of September 30,
olution process because of the Grand Jury involvement.       1985, no action plan had been received.
On August 7, 1985, the U.S. Attorney declined criminal       In the interim, the contractor filed suit against the
prosecution. On August 30, 1985, the OIG notified the        Government.
Regional Administrator of the declination and re-
quested updated action plans. We are awaiting receipt
of the revised action plans.                                 Opportunities for Savings Exist Through
                                                             Energy Conservation
Improvements to the Building                                 Period First Reported: October 1, 1983 to March 31, 1984
Delegations Program                                          Two OIG reviews identified annual savings of $477,000,
                                                             mostly available through simple modifications to equip-
Period First Reported: April 1, 1984 to September 30, 1984   ment and operating procedures at three Federal build-
This September 26, 1984 review disclosed the need to         ings. All of the recommendations in one report are
improve GSA's program for delegating buildings man-          implemented. The other report contained 16 recom-
agement responsibilities to occupying agencies. As re-       mendations; 9 are implemented.
ported last period, 14 of the 32 recommendations had         The seven unimplemented recommendations generally
been resolved, but resolution of II recommendations          involve specific actions to reduce energy consumption
had been deferred pending the outcome of a Task Force        and better manage energy costs. Implementation action
on Delegations intended to provide program direction.        was scheduled for completion as follows: one recom-
The OIG agreed to defer final resolution action on the       mendation was due on July I, 1985; five recommenda-
remaining 7 recommendations in order to obtain one           tions were due on September 30,1985; and one recom-
comprehensive package for all unresolved recom-              mendation is due on March 31, 1986. On September 24,
mendations.                                                  1985, the OIG received a request to extend all of the
On September 6, 1985, the GSA Administrator signed           implementation dates to May 1, 1986. The OIG is cur-
policy direction for the expansion of the building del-      rently evaluating this request.
egations program. We are therefore awaiting the Com-
missioner's action plans.
                                                             Application of the ICB System Concept
                                                             Period First Reported: October 1, 1982 to March 31, 1983
2. Significant Audits Not Being
                                                             This review of the mandatory use of Integrated Ceiling
   Implemented According to                                  and Background (ICB) systems in Federal facilities found
   Established Milestones                                    that this policy created customer dissatisfaction and
                                                             wasted millions of dollars. The report contained six rec-
                                                             ommendations; five are implemented.
                                                             The remaining recommendation involves development
Fire and Life Safety Systems                                 of guidelines for decisions on partitioning open-space
                                                             areas. The recommendation was originally scheduled
Period First Reported: October 1, 1983 to March 31, 1984     for implementation in March 1984. The date was re-
A series of seven OIG reviews identified deficiencies in     negotiated to May 1984.
fire and life safety systems in GSA-controlled space. As     In April 1984, PBS requested revisions to the action
of September 30, 1985: implementation had been com-          plan. The OIG reached an informal agreement with PBS
pleted on two reports; implementation was overdue on         in August 1984 that was to be formalized in a revised
one report; and implementation was proceeding ac-            action package. Despite numerous assurances by PBS,
cording to established milestones on the remaining four      neither the OIG nor the Office of Audit Resolution has
reports. This section discusses the overdue audit. The       been able to obtain an acceptable revised action plan.
four audits being implemented in accordance with es-         Therefore, as of September 30, 1985, PBS is overdue on
tablished milestones are discussed in the next section.      implementation of this recommendation based on the
The overdue report has one outstanding recommen-             May 1984 due date.
dation; it involves determining the extent of contractor
liability for boiler damage and holding the contractor
responsible for the damage. The recommendation had           More Improvements Needed in Lease
an implementation date of December 31, 1984.                 AlvvardProcedures
On April 9, 1985, the Regional Administrator provided
                                                             Period First Reported: October 1, 1984 to March 31, 1985
information to the Office of Audit Resolution indicating
that action had been taken on the recommendation.            This consolidated report identified significant problems
However, the OIG later determined that the action was        adversely affecting lease awards in spite of recent pro-
                                                                                                                         7
    gram improvements implemented by PBS. The report             safety systems· in Federal buildings throughout the
    contained 20 recommendations; 14 are implemented.            country. The report contained ten recommendations; six
                                                                 are implemented.
    Three of the remaining six recommendations were
    scheduled for implementation by September 1985. As           Implementation of the remaining four recommenda-
    of September 30, 1985, the Office of Audit Resolution        tions is proceeding according to schedule. Scheduled
    had not received documentation confirming that any of        completion for the three recommendations requiring ac-
    the three recommendations had been implemented.              tion by the regions varies by region from October 1985
                                                                 to January 1986. The other recommendation, requiring
    The remaining three recommendations are to be imple-
                                                                 replacement of a fire alarm system, is scheduled for im-
    mented by November 1985, December 1985, and Jan-
                                                                 plementation by November 1987.
    uary 1986, respectively.


    3. Significant Audits Being                                  Fire and Life Safety Systems
       Implemented According to                                  Period First Reported: October 1, 1983 to March 31, 1984
       Established Milestones                                    A series of seven OIG reviews identified deficiencies in
                                                                 fire and life safety systems in GSA-controlled space.
                                                                 Two reports were fully implemented as of Septem-
                                                                 ber 30, 1985; one report, as previously reported, con-
    Effective Lease Enforcement Efforts                          tains a recommendation that is not being implemented
    Are Needed                                                   in accordance with the established milestone. The re-
                                                                 maining four reports contained 14 recommendations; 9
    Period First Reported: April 1, 1984 to September 30, 1984   are implemented.
    This audit disclosed a series of deficiencies, including     Implementation of the other five recommendations is
    Government payments for utilities and rent on space          generally proceeding in accordance with the action plans,
    contracted to a private concern and for overtime services    although delays have been experienced and revised im-
    that were neither needed nor provided. The report con-       plementation dates have been granted. Full implemen-
    tained 16 recommendations to correct the identified de-      tation is now scheduled for various dates between May
    ficiencies; 15 are implemented.                              1986 and June 1987.
    The remaining recommendation, requiring determina-
    tion and recovery of lease escalation overpayments, is       Implementation of the Public Buildings
    scheduled for completion by December 1, 1985.                Cooperative Use Act
                                                                 Period First Reported: October 1, 1982 to March 31, 1983
    Excessive Energy Consumption
                                                                 Our review disclosed a number of problems associated
    Period First Reported: April 1, 1984 to September 30, 1984   with GSA's implementation ofthe Public Buildings Co-
                                                                 operative Use Act of 1976. The report contained 18 rec-
    This review of the heating and cooling operations at a       ommendations; 15 are implemented.
    Federal office building identified an estimated $203,000
    in wasted energy annually. The report contained ten          The remaining three recommendations involve: (I) de-
    recommendations; nine are implemented.                       velopment of policy on outleasing; (2) assignment of
                                                                 qualified experts on outleasing projects involving com-
    The remaining recommendation involves restoration of         mercial malls; and (3) development of policy and pro-
    the elevator control program. The recommendation was         cedures for outleasing of commercial malls. Recom-
    originally scheduled for completion by October I, 1984.      mendation (1) was Originally due for implementation
    A series of extensions was granted and completion is         in August 1983. Successive extensions to December
    now scheduled for August 30, 1986.                           1983, June 1984, August 1984, December 1984, Feb-
                                                                 ruary 1985, March 1985, and October 1985 have been
                                                                 granted.
    Fire and Life Safety Systems                                 The second and third recommendations were originally
    Period First Reported: April 1, 1984 to September 30, 1984   scheduled for completion in May and September 1983,
                                                                 respectively. Both dates have been successively rene-
    This consolidated report identified the need for GSA         gotiated to October 1983, April 1984, October 1984,
    action to ensure the proper functioning of fire and life     December 1984, March 1985, and October 1985.




8
SECTIO ill-FEDERAL SUPPLY
SERVICES
The Office of Federal Supply and Services (FSS) operates a             Be Significant Audits and
Government-wide service and supply system that contracts for
and distributes billions of dollars worth of supplies, materials,
and services for customer agencies each year. FSS also controls
                                                                             Investigations
GSA's personal property program. In the second half of Fiscal          This section summarizes significant internal and postaward au-
Year 1985, FSS obligated approximately $79.2 million in direct         dits and investigations dealing with FSS. Significant preaward
operating expense appropriations. Estimated sales through the          contract audits are presented in Section C.
General Supply Fund during the same period were over $1.4
billion.
Consistent with this level of activity, the DIG expended some          Excessive Freight Costs
34,177 direct stafJhours pursuing 375 audit and investigative
assignments. These statistics reflect 24 percent of total DIG direct   An OIG review at a supply distribution facility (SDF)
stajJhours and approximately 34 percent ofall work assignments.        disclosed that GSA was incurring excessive freight costs
                                                                       on its outgoing shipments of supplies. Moreover, the
                                                                       OIG determined that the major underlying problems
A.. Overview of OIG                                                    were nationwide in scope, affecting freight costs at all
                                                                       SDFs.
    Activity                                                           The excessive charges primarily resulted from reliance
This period, the OIG's internal audit coverage of FSS                  on erroneous contractor-prepared weight data. On av-
emphasized various aspects of GSA's supply network.                    erage, the weights were 1.64 percent higher than the
In a series of audits issued this period, we presented                 actual product weights of the 100 items sampled. The
findings relative to customer supply centers, supply dis-              inaccuracies resulted because:
tribution facilities, quality assurance programs, self-                  • The weights supplied by some contractors on their
service stores, and procurement offices. Several findings                  product cartons were inaccurate and GSA quality
relative to customer supply centers and supply distri-                     assurance specialists (QAS) did not pick up these
bution centers were especially noteworthy:                                 inaccuracies.
  • Review of a supply distribution facility disclosed                   • The contractor-supplied weights were accepted as
    that outgoing freight was being shipped based on                       correct and entered into the computer system.
    product weights 1.64 percent higher than actual
    product weights, thus resulting in excessive freight                 • The computer files were not updated, as required,
    costs. The problem resulted principally from reli-                     allowing erroneous weights to remain in the system.
    ance on erroneous contractor weight markings.                      Variables in the shipping process, such as the number
  • In separate regional reviews, we found common                      and weight of items per shipment, precluded OIG quan-
    operational problems at customer supply centers,                   tification of the exact monetary impact of this finding.
    which are GSA's relatively new innovation in the                   However, the finding gains significance in light of the
    small order supply area. We attributed these prob-                 volume of outgoing shipments handled by the SDF. In
    lems in large part to inadequate operational guid-                 FY 1984, this SDF alone shipped 62 million pounds of
    ance from Central Office FSS.                                      freight at an approximate cost of $3.9 million.
In addition, 51 contract audits, most of multiple award                In our May 6, 1985 report, we recommended that the
schedule contracts, identified recommended cost avoid-                 Assistant Regional Administrator for FSS:
ances of over $1l.7 million and potential cost recoveries                • Emphasize to QAS the significance of the weight
of over $1.7 million.                                                      marking requirement and instruct them to enforce
Relative to OIG investigative activity, our investigators                  the requirement;
completed 120 cases involving the programs, opera-
                                                                         • Institute periodic weight verification checks in
tions, or employees of FSS. A majority of these involved                   conjunction with inventory surveillance activities;
white collar crimes related to supply, procurement, con-                   and
tract, and quality assurance programs. One of these cases,
involving a contractor to both GSA and the Defense                       • Correct the computer file errors identified by the
Logistics Agency, resulted in a civil settlement of                         DIG.
$125,800.
                                                                       Regional management provided a responsive action plan
Another case, conducted jointly with the Naval Inves-                  for implementing these and other recommendations.
tigative Service, identified contractor overbillings of                Resolution was achieved on August 28, 1985. In con-
$112,404. Both the firm and its president pled gUilty to               junction with the resolution process, FSS issued a mem-
the charge of submitting false statements and were                     orandum to all zonal Contract Management Divisions
sentenced.                                                             adVising them ofthe problem with the weight markings             9
     on contractor canons and instructing them to imple-           • Take action to ensure that all inventory adjustments
     ment the report recommendations.                                are rechecked for accurate input processing;
                                                                   • Take action to ensure that 'customer sales are not
     $286,233 Recovery Achieved Through                              completed prior to receipt of a completed customer
     Postaward Audit                                                 order ticket; and
                                                                   • Ensure that the acceptance of uneconomical small
     On July 11, 1985, an FSS contracting officer negotiated         orders is discouraged, possibly through establish-
     the recovery of $286,233 from a multiple award sched-           ing minimum order requirements.
     ule supplier of photographic equipment. The recovery
     resulted from an OIG postaward audit disclosing that        Management generally concurred with the recommen-
     the contractor violated the price reduction clause of its   dations in the draft reports, although disagreeing on the
     GSA contract.                                               need for a minimum order requirement. We reaffirmed
                                                                 this recommendation in the June 20, 1985 report.
     OIG auditors found that during the contract period the
                                                                 We are awaiting the action plans for implementing the
     firm sold contract items to its commercial customers at
                                                                 recommendations in the final reports.            .
     discounts higher than those disclosed to GSA during
     negotiations. GSA contracts specifically provide that the   $125,800 Civil Settlement
     Government is entitled to equivalent price reductions
     if, after negotiations, the contractor reduces its prices   On June 26, 1985, the Government entered into a civil
     or grants special discounts to other customers.             settlement agreement with a GSA medical equipment
     OIG auditors originally recommended a cost recovery         contractor and its president. Under the terms of the set-
     of $344,252, based on contract sales of $1.8 million.       tlement, the contractor will pay the Government ap-
                                                                 proximately $125,800 over a 4-year period.

     Procedures Needed at Customer                               The GSA OIG, the U.S. Customs Service, and the De-
                                                                 fense Criminal Investigative Service jointly investigated
     Supply Centers                                              allegations that the contractor supplied unsafe medical
                                                                 equipment. The investigation substantiated these alle-
     Separate OIG reviews of two Customer Supply Centers         gations and found that the contractor had:
     (CSCs) found that CSCs have been operating without
     formal operating procedures since their inception in          • Falsely certified that foreign-made medical instru-
     1982. Although the CSCs have generally met their mis-           ments were domestically produced; and
     sion of supplying customers with common-use, high-
     demand items, the OIG identified several operational          • Violated the Buy American Act provisions of its
                                                                     GSA and Defense Logistics Agency (DLA) contracts.
     areas where formal guidance would enhance the effi-
     ciency and effectiveness of operations.                     Relative to criminal charges, the company and its pres-
                                                                 ident were convicted of making false statements to the
     The OIG found, for example, that CSCs commonly re-
                                                                 Government and of false advertising in October 1983.
     ceive bulk sales orders, yet no formal policy exists on
                                                                 The firm was fined $15,000 and the president sentenced
     whether such orders should be fined. Processing bulk
                                                                 to 2 years imprisonment (suspended), 2 years proba-
     sales orders quickly depletes inventories, hindering
                                                                 tion, and fined $20,000. DLA debarred both parties from
     prompt service and decreasing product availability for
                                                                 conducting business with the Government for approx-
     a wider range of customers. Further, by filling bulk or-
                                                                 imately 2 years, effective June 15, 1984.
     ders, CSCs essentially operate as mini-depots, thereby
     jeopardizing their original mission as small quantity
     retail outlets. Conversely, CSCs are also accepting many    False Statement Convictions
     small orders that may not be economical to process.
                                                                 An OIG investigation conducted jointly with the Naval
     We also found that specific guidance was needed in          Investigative Service disclosed that a contractor had
     areas such as physical inventory adjustments and order      overbilled the U.S. Navy in the amount of $112,404. The
     processing. Notably, current procedural controls over       firm, which repaired and rehabilitated heavy equip-
     physical inventory adjustments did not provide assur-       ment under GSA contracts, fraudulently charged non-
     ances that the automated inventory is correct. Moreover,    Government work hours to Government jobs and trans-
     we also identified that CSCs are bypassing order proc-      ferred work hours among Government jobs in order to
     essing procedures and filling customer orders without       avoid ceiling billing limitations.
     completing the necessary documentation.
                                                                 On September 6, 1985, the company and its president
     In two reports issued June 20, 1985 and August 19,          entered gUilty pleas in Federal Court to a one-count
     1985, the OIG directed recommendations to the cog-          information charging them with submitting false state-
     nizant Regional Administrators to correct these and other   ments. Shortly thereafter, the company was fined $1,000;
     deficiencies. Some of the more significant recommen-        the firm's president was fined $5,000 and given a 2-
     dations included:                                           year suspended sentence with i years probation.
       • Obtain formal guidance from FSS Central Office          Acting on the OIG's recommendation, GSA has pro-
         regarding the issues of making bulk sales and the       posed debarment of the firm and its president. Civil
         exact mission of the CSC;                               efforts to recover the funds are also being pursued.
10
C.. Significant Preaward                                          $86,025 in full settlement of its $3.3 million claim.

    Audits                                                        Preaward Questions $4.7 Million in
                                                                  Proposed Cost
The OlG's preaward audit program provides information to
contracting officers for use in negotiating contracts. The pre-   The OIG evaluated a pricing proposal submitted in re-
decisional, advisory nature of preaward audits distinguishes      sponse to a GSA solicitation for the purchase, rental,
them from other audits.                                           maintenance, and repair of copying equipment. Esti-
                                                                  mated sales under the contract are $19.4 million. '
$3.2 Million Avoidance Through
                                                                  In our September 20, 1985 audit report, we advised the
Preaward Audit                                                    contracting officer of commercial discounts not dis-
                                                                  closed in the firm's offer. These pricing concessions re-
Based on a request from the GSA General Counsel, the              sulted in more favorable terms than those offered to
OIG audited a proposal for alleged damages arising from           GSA. We further advised the contracting officer that the
GSA's termination of a contract for default. The audit            rental rates offered the Government were not based on
questioned $3.2 million of the $3.3 million claimed by            commercial market rates. Therefore, the auditors rec-
the contractor.                                                   ommended total cost avoidances of $4.7 million.
The June 13, 1984 report advised General Counsel that             We are awaiting the contracting officer's response to the
 $2.8 million, which the firm claimed as anticipatory             audit report.
profits, was not allowable under the Federal Procure-
ment Regulation. In addition, the auditors advised that
an additional $.4 million in contractor claims were either
'unsupported, not applicable to the terminated contract,
                                                                  D. Statistical Highlights
 or erroneously computed.                                         The following table compares OIG activity and accom-
General Counsel utilized this information in negotiat-            plishments within FSS to the overall GSA totals for the
ing an agreement whereby the company would receive                period.



                                 Activity                                          FSS                    All GSA

      AudH Reports Issued ................................ .                        67                      330
      Recommended Cost Avoidance ...................... .                      $11,722,934              $59,969,230
      Recommended Cost Recovery ....................... .                       $1,709,745              $17,450,715
      Management Commitments to Avoid Costs ............ .                      $7,130,846              $22,602,775
      Management Commitments to Recover Funds ......... .                         $793,895              $14,708,636
      Percentage of Recommended Cost
        Avoidance Agreed to by Management ............... .                          50%                     56%
      Percentage of Recommended Cost
        Recovery Agreed to by Management. ............... .                          47%                     98%
      Unresolved Audits Old~r Than 6 Months (Excluding
        Preawards) ...................................... .                                                    4
      Implementation Reviews Finding
        Unimplemented Recommendations ................. .                                                     1
      New Investigative Cases ............................ .                        105                     288
      Criminal Referrals (Subjects) ......................... .                      73                     147
      Civil Referrals (Subjects) ............................ .                       4                      19
      Administrative Referrals (Subjects) .................... .                     91                     305
      Suspension/Debarment Referrals (Subjects) ........... .                        40                      66
      Indictments/Informations/Complaints .................. .                       19                      30
      Successful Criminal Prosecutions ..................... .                       16                      33
      Civil Settlements/Judgments ......................... .                         2                       9




                                                                                                                              11
     E.. Significant Audits From                                       ber 30, 1985. As of September 30, 1985, documentation
                                                                       supporting its implementation had not been received
         Prior Reports                                                 by the Office of Audit Resolution.

     According to GSA's audit resolution system, the Office of Audit   2. Significant Audits Being
     Resolution, Office of Policy and Management Systems, is re-
     sponsible for ensun'ng implementation of resolved audit rec-         Implemented According to
     ommendations. Therefore, that office furnished the status in-        Established Milestones
     formation on implementation presented herein.
     Two significant audits from prior Reports to the Congress are     Stronger Internal Controls
     unimplemented. One report is not being implemented in ac-
     cordance with established milestones; the other report is being   Needed in Customer Supply
     ;mplemented in accordance with established milestones.            Center Automated System
                                                                       Period First Reported: October 1, 1984 to March 31, 1985
     1. Significant Audits Not Being
                                                                       This review of the Customer Supply Center automated
         Implemented According to                                      system identified internal control weaknesses that could
         Established Milestones                                        result in improper and undetected changes to master
                                                                       files, unauthorized entry to the system, and inadequate
     Quality Assurance                                                 inventory control. The report contained eight recom-
                                                                       mendations; five are implemented.
     Period First Reported: April 1, 1984 to September 30, 1984        The remaining recommendations require: (1) prep-
     Two OIG reviews identified defective material entering            aration and approval of a systems development plan;
     the supply system without detection by contractor qual-           (2) development and implementation of physical se-
     ity control systems or FSS plant surveillances. All ofthe         curity procedures; and (3) finalization of system docu-
     recommendations in one report are implemented; one                mentation. The first recommendation is due for imple-
     of the two recommendations in the second report is                mentation by November 1985. Full implementation of
     implemented.                                                      the remaining two recommendations is contingent upon
                                                                       issuance of a handbook. Although originally scheduled
     The other recommendation in the second report, in-                for issuance in September 1985 (dependent upon avail-
     volving improvements in surveillance inspections, was             ability of printing funds), only three chapters were is-
     originally scheduled for completion by September 30,              sued. A request for an extension to March 1986 is cur-
     1984. The action plan date was renegotiated to Septem-            rently being considered by the OIG.




12
SECTI IV-I FORMATION RESOURCES
MAN GEME T
The Office of Information Resources Management (OIRM) co-
ordinates and directs a comprehensive Government-wide pro-
                                                                  B.. Significant Audits and
gram for managing and procuring automated data processing
(ADP) and telecommunications equipment and services. In the
                                                                      Investigations
second half of Fiscal Year 1985, OIRM obligated over $17.2        This section summarizes significant internal and postaward au-
million in direct operating expense appropriations. Estimated     dits and investigations dealing with OIRM operations. Signif-
sales through the Federal Telecommunications Fund and the         icant preaward contract audits are presented in Section C.
ADP Fund during the same period exceeded $427 million.
Collectively, the OIG expended some 30,521 direct stajJhours      $499,999 Civil Settlement
pursuing 134 audit and investigative assignments. These figures
reflect 21 percent of total OIG direct stajJhours and some 12     On July 18, 1985, a GSA contractor agreed to pay the
percent of total work assignments.                                Government $499,999 to settle potential civil fraud is-
                                                                  sues against the firm. The full amount has been paid to
                                                                  the Government.
                                                                  Joint OIG audit and investigative effort disclosed that
A.. Overview of OIG                                               the firm supplied incomplete and inaccurate data in its
    Activity                                                      price proposals to GSA. These price proposals were ul-
                                                                  timately relied upon by GSA in negotiating three con-
The OIG's audit coverage of OIRM continued to focus               tracts for the purchase of modems and other ADP sup-
on its contracting function, particularly the multiple            port equipment.
award schedule program. This emphasis stems from rec-             The civil case against the firm alleged that Federal agen-
ognition of the fact that the Government is the major             cies were overcharged for products and services be-
procurer of computer equipment and accessories in the             tween 1979 and 1981 due to the incomplete price and
marketplace today.                                                discount information. The Department of Justice, in
We issued 63 contract audit reports this period, rec-             conjunction with GSA and OIG officials, handled the
ommending cost avoidances of over $28.6 million and               negotiations leading to the settlement agreement.
cost recoveries of over $5.2 million. Most comprised
preaward audits designed to ensure that the Govern-               Contract Services Program
ment receives prices commensurate with its standing
in the marketplace. Notably, one pre award highlighted            At the request of the Regional Administrator, the OIG
this period accounts for $8 million of our recommended            reviewed a regional Contract Services Program (CSP).
cost avoidance.                                                   The CSP procures ADP technical support services for
This period, OIG audit and investigative work resulted            customer agencies. Within this particular region, CSP
in three substantial civil fraud settlements with OIRM            functions are handled by FSS contracting officers and
contractors:                                                      the Technical Services Branch (TSB), OIRM. Our re-
                                                                  view, which focused on TSB procurements valued at
  • Two of the settlements, which totaled $1,059,999,             $9.3 million between December 1981 and November
    involved issues raised by OIG audit then devel-               1984, identified serious contract administration, task
    oped by OIG investigation. The full amounts of                order procurement, and personnel management prob-
    these settlements have been paid to the                       lems. Most of these problem instances arose from non-
    Government.                                                   compliance with laws, regulations, and GSA policies
                                                                  and procedures .
   • The third settlement, which amounted to
     $1,103,769, stemmed from a firm's voluntary dis-             Relative to contract administration, the OIG found that,
     closure of contract violations by a subsidiary of the        contrary to the Federal Procurement Regulation and GSA
     firm. OIG audit and investigation enabled quan-              policy, two contract renewal options were exercised
     tification of losses suffered by the Government as           without first determining that this was the most ad-
     the result of these contract violations. The full            vantageous course for the Government. The OIG esti-
     amount of this settlement has been paid to the               mated that the competitive award of a new contract,
     Government.                                                  rather than exercising the renewal options, could have
                                                                  resulted in Government savings of up to $622,000.
In addition to these efforts, the OIG completed a com-
prehensive internal audit of the Contract Services Pro-           Relative to the procurement and personnel management
gram in one region. The review disclosed that the pro-            problems, the audit concluded that unwarranted pro-
gram, which procures ADP technical support services               gram costs of some $250,000 annually resulted from:
for Federal agencies, suffered from serious contract              task order procurements exceeding both the scope and
administration, task order procurement, and personnel             authority of the CSP and pertinent contract limitations,
management problems.                                              and overstaffing of the TSB.                                     13
     In the July 10, 1985 final report, the OIG reconunended       The settlement agreement provides for payment of
     that the Assistant Regional Administrators for OIRM           $1,103,769, as follows: approximately $680,000 for
     and FSS:                                                      overbillings; approximately $330,000 for lost interest
                                                                   thereon; and approximately $90,000 for the cost of the
       • Establish management controls to ensure that con-         OIG audit and investigation. On August 22, 1985, the
         tracting officers can make economical decisions on        full settlement amount was deposited in the U.S.
         contract renewal options; and                             Treasury.
       • Direct that all laws, regulations, policies, and con-     The Department of Justice did not regard punitive mon-
         tract terms be complied with prior to issuing any         etary damages as appropriate because of the firm's co-
         new CSP task orders.                                      operation throughout the audit and investigative proc-
     We also recommended that the Regional Administrator:          ess. However, the OIG is investigating potential criminal
                                                                   violations in connection with this matter, and the Gov-
       • Request that the Office of Project Control and Over-      ernment has reserved the right to pursue criminal and
         sight conduct comprehensive procurement man-              administrative action, as well as civil action against
         agement reviews of the CSP;                               individuals.
       • Authorize the Office of Project Control and Over-
         sight to perform contract clearance reviews of CSP
         task order procurements; and                              C.. Significant Preaward
       • Take action to reduce the size of the TSB technical
         staff to the level necessary for mission                      Audits
         accomplishment.
                                                                   The OIG's preaward audit program provides information to
     The Regional Administrator generally concurred with           contracting officers for use in negotiating contracts. The pre-
     the recommendations in the draft report and indicated         decisional, advisory nature of preaward audits distinguishes
     that corrective actions had been initiated in many in-        them from other audits.
     stances. We are awaiting the action plans for imple-
     menting the reconunendations in the final report.             $8 Minion Cost Avoidance
                                                                   Recommended
     $560,000 Civil Settlement
                                                                   The OIG audited a firm's $175 million pricing proposal
     On July 25, 1985, a firm agreed to pay the Government         submitted in response to a solicitation for the purchase
     $560,000 to settle civil charges that it violated the False   and rental of ADP equipment, related software, and
     Claims Act when negotiating for its GSA contracts. The        repair and maintenance services. The audit concluded
     firm, a supplier of computer software, refunded the full      that the firm's discount and sales information was ac-
     amount to the Government at the time of settlement.           ceptable for negotiations purposes, but inadequate in
     Joint OIG audit and investigation determined that the         certain respects.
     firm submitted false, incomplete, and/or misleading           Specifically, the August 28, 1985 report advised the con-
     pricing and marketing data relative to the GSA contracts      tracting officer of commercial selling practices not dis-
     it held between 1979 and 1981. Approximate sales un-          closed in the firm's data. These practices resulted in
     der the contracts totaled $5.3 million; OIG auditors rec-     more favorable terms than those offered to GSA, which
     ommended a refund of $1.5 million.                            is contrary to contract provisions entitling GSA to dis-
     The matter was referred to the Department of Justice          counts at least equal to the firm's best commercial cus-
     for criminal prosecution, but the referral was declined.      tomer in the same category. In addition, we recom-
     The Department of Justice pursued the matter civilly,         mended that the contracting officer seek even higher
     resulting in this settlement agreement.                       discounts, due to the Government's high volume of pur-
                                                                   chases and rentals. Accordingly, the auditors recom-
     $1.1 Million Civil Settlement                                 mended a cost avoidance of $8 million.
                                                                   The contracting officer successfully negotiated the con-
     On August 16, 1985, a contractor entered into a settle-       tract and obtained $8 million in pricing concessions.
     ment agreement with the Government providing for
     payment of more than $1.1 million in connection with          (Note: The $8 million management commitment is not
     allegations of fraudulent overbillings by a wholly-owned      included in our data for this period because of notifi-
     subsidiary of the firm. The overbillings took place under     cation delays; it will be included in our next Report to
     a series of contracts that the subsidiary held with OIRM      the Congress.)
     between 1976 and 1983; the subsidiary was acquired
     by the firm in December 1982.
     The firm voluntarily disclosed the contract violations of     D.. Statistical Highlights
     its subsidiary. Subsequently, the OIG was asked to
     quantify the loss. After comprehensive audit and in-          The following table compares OIG activity and accom-
     vestigation, the case was referred to the Department of       plishments within OIRM to the overall GSA totals for
     Justice.                                                      the period.

14
                                 Activity                                         OIRM                     All GSA

      Audit Reports Issued ................................. .                      66                      330
      Recommended Cost Avoidance ...................... .                      $28,631,082              $59,969,230
      Recommended Cost Recovery ....................... .                       $5,261,233              $17,450,715
      Management Commitments to Avoid Costs ............ .                      $4,894,808              $22,602,775
      Management Commitments to Recover Funds ......... .                       $1,979,201              $14,708,636
      Percentage of Recommended Cost
        Avoidance Agreed to by Management ............... .                          68%                      56%
      Percentage of Recommended Cost
        Recovery Agreed to by Management. ............... .                          86%                      98%
      Unresolved Audits Older Than 6 Months (Excluding
        Preawards) ...................................... .                           1                         4
      Implementation Reviews Finding
        Unimplemented Recommendations ................. .                                                      1
      New Investigative Cases ............................ .                         12                      288
      Criminal Referrals (Subjects) ......................... .                       3                      147
      Civil Referrals (Subjects) ............................ .                       4                       19
      Administrative Referrals (Subjects) .................... .                     12                      305
      Suspension/Debarment Referrals (Subjects) ........... .                         2                       66
      Indictments/Informations/Complaints .................. .                        1                       30
      Successful Criminal Prosecutions ..................... .                        2                       33
      Civil Settlements/Judgments ......................... .                         3                        9




                                                                  September 30, 1985, documentation supporting its im-
E. Significant Audits From                                        plementation had not been received by the Office of
   Prior Reports                                                  Audit Resolution. The other recommendation has an
                                                                  indefinite completion date since GSA monitoring and
According to GSA's audit resolution system, the OIG is respon-    followup activities cannot guarantee the timeliness of
                                                                  responses from other Federal agencies.
sible for ensuring resolution of audit recommendations, while
the Office of Audit Resolution, Office of Policy and Management
Systems, is responsible for ensuring implementation of resolved   2. Significant Audits Being
audit recommendations. That office therefore furnished the sta-
tus information on implementation presented herein.                  Implemented According to
Three OIRM audits highlighted in prior Reports to the Congress       Established Milestones
are unimplemented. One report is not being implemented in
accordance with established milestones; the remaining two are
being implemented in accordance with established milestones.      Improvements Needed in Computer
                                                                  Security Program
1. Significant Audits Not Being                                   Period First Reported: October 1, 1983 to March 31, 1984
    Implemented According to                                      This March 30, 1984 review found that GSA computer
    Established Milestones                                        systems are highly susceptible to loss through fraud,
                                                                  misuse, and disaster, especially fire. Accordingly, we
                                                                  made 20 recommendations for corrective action; 19 are
Inactive Telephone Lines                                          implemented.
                                                                  Action has been initiated to implement the last rec-
Period First Reported: October 1, 1984 to March 31, 1985          ommendation, involving inclusion of concise security
This review ofthe Telephone Inventory Accounting Sys-             requirements in all contractual agreements for ADP
tem (TIAS) disclosed inaccuracies in the telephone main           services. Final implementation action is scheduled for
line inventory requiring immediate corrective action.             completion by October 31, 1986.
Accordingly, we made four recommendations to correct
the identified deficiencies; two are implemented.                 TIAS Inventory Not Being Reconciled
The remaining recommendations require that: (1) OIRM              Period First Reported: October 1, 1984 to March 31, 1985
conduct similar reviews for other regions where pos-
sible and feasible; and (2) customer agency responses             This regional review of TIAS found that it contained
be monitored and appropriate followup action be taken             inaccurate data that could have resulted in incorrect
for nonrespondents. The first recommendation was                  payments and inaccurate customer billings. The report
scheduled for completion by September 30, 1985. As of             contained six recommendations; four are implemented.       15
     The remaining recommendations require that: (1) all        ment. The first recommendation is due for implemen-
     TIAS customer inventories be validated annually and        tation by October 31, 1985. The second recommenda-
     TIAS officials follow up to ensure compliance, and (2) a   tion was originally due for implementation by June 30,
     utilization study be performed on GSA telephone equip-     1985; an extension was granted to October 1, 1985.




16
SECTION V-OTHER GSA COVERAGE

Other GSA services and staff offices, such as the Office of Comp-      reviewing transportation bills paid by Government
troller and the Office of Policy and Management Systems, com-          agencies. These audits ensure that the Government paid
prised the focus for the remainder of the OfG's efforts this period.   the lowest appropriate tariff or tender rate for trans-
These other offices generally support the administrative and           portation services and identify refunds due the
management functions of GSA.                                           Government.
The OfG devoted approximately 14,305 direct staffhours pur-            In FY 1984, contractors reviewed approximately 1.5 mil-
suing 117 audit and investigative assignments within these other       lion transportation bills and identified $5.4 million in
areas of GSA. These figures reflect 10 percent of total OIG direct     carrier overcharges. This represented recoveries of some
staffhours and approximately 10 percent ofall work assignments.        $3.40 for every $1 expended for commercial audit serv-
                                                                       ices. GSA currently estimates that contractors can iden-
                                                                       tify $13.9 million in carrier overcharges in FY 1986 at
A. Overview of OIG                                                     a cost of approximately $4 million.
   Activity                                                            In addition to reducing FY 1986 refunds, the OIG was
                                                                       concerned that suspension of the program would result
OIG coverage of the remaining GSA services and staff                   in the permanent loss of some refunds, since there is a
offices consisted primarily of internal management re-                 3 year statute of limitations governing the recovery of
views. In the resulting reports, we presented findings                 carrier overcharges. As of December 1984, TAD was
and recommendations relative to areas such as real                     auditing transportation bills that were 14 to 18 months
property sales, stockpile disposals, imp rest funds, cash              old.
management, transportation audits, and the General
                                                                       In an interim report dated July 9, 1985, we recom-
Supply Fund.                                                           mended that the Comptroller take immediate action to
In two areas, audit work during this and previous pe-                  develop a funding method for the contract audit pro-
riods produced especially noteworthy results:                          gram that provides for contractor payment from col-
                                                                       lected overcharges, rather than the current method of
  lID   OIG review of the transportation audit program                 funding the program through the General Management
        disclosed that GSA's FY 1986 budget request did                and Administration Fund. We further recommended that
        not include funding for contractor audit services,             the Comptroller consider requesting modifications to
        with the result that net Government revenues could             FY 1986 appropriations language, and enactment of au-
        decrease by $9.9 million in FY 1986. A provision               thorizing legislation for FY 1987 and subsequent years.
        was subsequently incorporated into the FY 1985
        Supplemental Appropriations Act authorizing con-               A provision was subsequently incorporated into the FY
        tractor payment from overcharges collected through             1985 Supplemental Appropriations Act that authorizes
        September 30, 1989.                                            transportation audit contractors to be paid from over-
                                                                       charges collected from carriers through September 30,
  lID   An OIG audit this period supplemented previous
                                                                       1989. The Comptroller further indicated that the need
        audit work in reviewing GSA's use of the General               for future legislation (due to the expiration date) will
        Supply Fund to finance acquisitions of operating
                                                                       be considered when and as appropriate. These actions
        and administrative equipment. As of September 30,              satisfied the intent of our recommendations, and reso-
        1984, GSA's practice of amortizing reimbursements
                                                                       lution was thus achieved on September 6, 1985.
        to the Fund had resulted in an unamortized balance
        of $25.4 million. GSA is now developing proce-
        dures to ensure full and prompt reimbursement to
        the Fund for new equipment purchases.
                                                                       General Supply Fund Equipment
Bo Significant Audits                                                  Acquisitions
This section summarizes significant internal audits involving          The General Supply Fund (GSF), with a current appro-
the programs and operations of the remaining GSA services and          priated capital balance of $500 million, was established
staff offices.                                                         by the Congress in 1949 to procure personal property
                                                                       for the use of Federal agencies. The fund's authorizing
Funding for Commercial Audit Services                                  legislation specifies reimbursement to the fund within
                                                                       45 days from the delivery of goods or the incurring of
During a review of GSA's Transportation Audit Division                 a liability. This period, an OIG evaluation of GSA's use
(TAD), the OIG found that GSA's FY 1986 budget re-                     of the GSF to finance acquisitions of operating and
quest did not include funding for commercial trans-                    administrative equipment reported that, as of Septem-
portation audit contracts. Since 1983, GSA has con-                    ber 30, 1984, GSA had an unamortized balance of $25.4
tracted with audit firms to supplement the TAD in                      million.                                                   17
     In two previous audits, the OIG had expressed concern         1985, the Comptroller General reaffirmed his position
     over GSA's practice of procuring equipment with GSF           but stated that "our decision should be prospectively
     funds and then amortizing payments over the useful life       applied to new equipment purchases made by GSA
     of the equipment. Our position was that such purchases        through the GSF beginning in Fiscal Year 1987."
     must be charged in full to the appropriations in the fiscal
                                                                   In our report dated April 25, 1985, we reviewed the
     year in which the obligation was incurred. The GSA
                                                                   audit, Agency, and Comptroller General positions on
     management position, presented in a General Counsel
                                                                   this issue and recommended that the GSA Comptroller
     opinion, was that " . .. the GSF is available for the pur-
                                                                   develop procedures, beginning in Fiscal Year 1987, to
     chase of... equipment and that the incremental reim-
                                                                   ensure prompt reimbursement to the GSF. Management
     bursement is appropriate so long as Congress is in-
                                                                   submitted a responsive action plan and resolution was
     formed as to the method by which the equipment is
                                                                   achieved on June 13, 1985.
     being purchased." To resolve the matter, the OIG re-
     quested a Comptroller General decision.
     The Comptroller General decision, issued July 10, 1984,
     stated that GSA possessed no legal authority to use the       C.. Statistical Highlights
     fund in the manner described and was bound by the
     same prompt reimbursement requirement applicable to           The following table compares OIG activity and accom-
     other requisitioning agencies. GSA requested a reconsid-      plishments in other GSA areas to the overall GSA totals
     eration of the Comptroller General position. On April 1,      for the period.



                                    Activity                                    Other GSA                All GSA

          AudH Reports Issued ................................ .                    20                     330
          Recommended Cost Avoidance ...................... .                     $330,003             $59,969,230
          Recommended Cost Recovery ....................... .                   $9,900,000             $17,450,715
          Management Commitments to Avoid Costs ............ .                   $117,290              $22,602,775
          Management Commitments to Recover Funds ......... .                  $10,399,999             $14,708,636
          Percentage of Recommended Cost
            Avoidance Agreed to by Management ............... .                     100%                    56%
          Percentage of Recommended Cost
            Recovery Agreed to by Management. ............... .                      96%                     98%
          Unresolved Audits Older Than 6 Months (Excluding
            Preawards) ...................................... .                                               4
          Implementation Reviews Finding
            Unimplemented Recommendations ................. .                                                1
          New Investigative Cases ............................ .                     26                    288
          Criminal Referrals (Subjects) ......................... .                   7                    147
          Civil Referrals (Subjects) ............................ .                   2                     19
          Administrative Referrals (Subjects) .................... .                 31                    305
          Suspension/Debarment Referrals (Subjects) ........... .                                           66
          Indictments/Informations/Complaints .................. .                    3                     30
          Successful Criminal Prosecutions ..................... .                    4                     33
          Civil Settlements/Judgments ......................... .                     3                       9




18
D.. Significant Audits From                                       We therefore made 12 recommendations to improve the
                                                                  overall evaluation process; seven are implemented.
    Prior Reports                                                 Of the five unimpleme~lted recommendations, one, es-
                                                                  tablishing standards for the review process, was sched-
According to GSA's audit resolution system, the OIG is respon-    uled for implementation by June 1985. As of Septem-
sible for ensuring resolution of audit recommendations, while     ber 30, 1985, the recommendation had not been imple-
the Office of Audit Resolution, Office of Policy and Management   mented and no extension had been granted. Three of
Systems, is responsible for ensuring implementation of resolved   the remaining four recommendations are now sched-
audit recommendations. That office therefore furnished the sta-   uled for completion by October 1985; the fourth is
tus information on implementation presented herein.               scheduled for completion by December 1986.
With regard to GSA services and staff offices other than PBS,
FSS, and OlRM, two significant audits from prior Reports to       2. Significant Audits Being
the Congress are unimplemented. One report is being imple-           Implemented According to
mented according to established milestones; the other is not.
                                                                     Established Milestones
1. Significant Audits Not Being
                                                                  Accounting for Stockpile Sales Receipts
    Implemented According to
    Established Milestones                                        Period First Reported: April 1, 1984 to September 30, 1984
                                                                  A review of the accounting methods for stockpile re-
                                                                  ceipts, coupled with a legal opinion rendered by GSA's
Implementation of the Federal Managers'                           Office of General Counsel, disclosed that at least $19.9
Financial Integrity Act                                           million in stockpile receipts were incorrectly deposited
                                                                  in the U.S. Treasury. The report contained two recom-
Period First Reported: April 1, 1984 to September 30, 1984        mendations; one is implemented.
This review of GSA's 1982-1983 effort to satisfy the              The remaining recommendation, reviewing other stock-
Federal Managers' Financial Integrity Act requirements            pile sales contracts to identify other incorrect deposits,
disclosed that it generally fell short of its intended goal.      is to be implemented by November 30, 1985.




                                                                                                                               19
     SECTIO                                                 ISTICAL SUMMARY                                                F
      I ACC                                                    NTS



     The previous sections of this report presented OIG activity and      We referred 254 cases to GSA management for admin-
     accomplishments by GSA service and staff office. In the pages        istrative action. This total includes 23 case referrals (66
     that follow, overall OIG accomplishments are comprehensively         subjects) for suspension/debarment and 231 case refer-
     reported. To facilitate cross-referencing, the GSA organizational    rals (305 subjects) for other administrative actions. Based
     orientation is maintained in these summary statistics. However,      on these and prior referrals, management debarred 57
     there is not a one-to-one correspondence between the data re-        contractors, suspended 11 contractors, reprimanded 35
     ported by GSA organization and the overall statistics, because       employees, suspended 16 employees, and terminated
     a portion of our work involved non-GSA operations.                   20 employees.
                                                                          The following subsection presents detailed information
                                                                          on these and other quantifiable accomplishments.
     A.. OIG Accomplishments
     During the reporting period, the OIG issued 335 re-
     ports, including 23 audits performed for the OIG by                  Be Summary Statistics
     another agency. These reports contained financial rec-
     ommendations totaling $77,448,561, including
     $59,997,846 in recommendations for more efficient use.               1. Audit Reports Issued
     of resources (cost avoidance) and $17,450,715 in rec-
     ommendations for the recovery of funds.                              Table 1 summarizes OIG audit reports issued this period
                                                                          by GSA program area. The table includes 23 audits,
     Based on audit reports issued in this and prior periods,             recommending a total cost avoidance of $7,274,356, per-
     management committed itself to use $22,602,775 more
                                                                          formed for the GSA OIG by the Defense Contract Audit
     efficiently and to recover $14,708,636. This latter figure           Agency.
     includes $2,163,768 resulting from civil settlements that
     involved OIG audit, investigative, and legal collab-
     oration.
     The OIG opened 288 investigative cases and closed 343.               2. Audit Reports Resolved
     We referred 83 cases (147 subjects) for criminal prose-
     cution,9 cases (19 subjects) for civil litigation, and 18             Table 2 summarizes the universe of audits to be resolved
     cases for further investigation by other Federal or State             by the OIG and GSA management during this period,
     agencies. Based on these and prior referrals, 29 cases                as well as the status of those audits as of September 30,
     (56 subjects) were accepted for criminal prosecution                . 1985. Fifty-seven audits more than 6 months old were
     and 6 cases (7 subjects) were accepted for civil litigation.          unresolved as of September 30, 1985; but 53 were pre-
                                                                           award audits, which are not subject to the 6-month
     Criminal cases originating from OIG referrals resulted                resolution requirement. Thus, only 4 audits were ac-
     in 27 indictments/informations/complaints and 33 suc-                 tually overdue-a statistic that reflects creditably on
     cessful prosecutions. Civilly, OIG referrals resulted in              GSA's audit resolution efforts.
     3 civil complaints. Judgments were entered in 3 cases
     (3 subjects) and settlements were reached in 6 cases (6              It should be noted that Table 2 does not include: reports
     subjects). These actions resulted in determinations that             issued by the OIG to other agencies (5 this period); and
     $2,381,523 is owed the Government. This figure in-                   reports excluded from the resolution system because
     cludes $2,163,768 also reported as a management com-                 they pertain to on-going investigations. As of Septem-
     mitment to recover funds, since it resulted from collab-             ber 30, 1985, 12 audits (6 issued this period, 6 issued
     orative effort involving OIG auditors, investigators, and            in prior periods) had been excluded from the resolution
     attorneys.                                                           system for this reason.




20
                                            Table 1.
                                      Summary of OIG Audits
                                             Percentage      Recommended             Recommt>nded
            GSA                   Reports     of Total           Cost                    Cost
          Program                 Issued       Audits          Avoidance               Recovery

PBS
-Internal ...............            89                         $ 1,330,100          $     287,281
-Contract ..............             88                          17,955,111                292,456
                                    177              53         $19,285,211          $     579,737
FSS
-Internal ...............            16                         $                    $
-Contract ..............             51                          11,722,934            1,709,745
                                     67              20         $11,722,934          $ 1,709,745
OIRM
-Internal ...............             3                         $                    $
-Contract ..............             63                             28,631,082         5,261,233
                                     66              20         $28,631,082          $ 5,261,233
Other GSA
-Internal ...............            17                         $                    $ 9,900,000
-Contract ..............              3                                  330,003
                                     20               6         $        330,003     $ 9,900,000
Non-GSA
-Internal ...............             2                         $                    $
-Contract ..............              3                                   28,616
                                      5               1         $         28,616     $
TOTAL ..................           335           100            $59,997,846          $17,450,715
TOTAL
COSTS
RECOMMENDED         $77,448,561



                                             Table 2.
                                     Resolution of OIG Audits
                                                            Reports With                 Total
                                              No. of          Financial                Financial
                                             Reports      Recommendations          Recommendations

Reports To Be Resolved as of
4/1/85
-Less than 6 months old .............. .      128                80                      $ 25,209,248
-More than 6 months old .............. .       43                40                        22,188,437
Reports Issued This Period ............. .    324               163                        73,032,170
TOTAL TO BE RESOLVED ............. .          495               283                      $120,429,855
Reports Resolved
-Issued prior periods .................. .    114                74                      $ 31,451,018
-Issued current period ................ .     180                65                        23,196,873
TOTAL RESOLVED .................... .         294               139                      $ 54,647,891
Unresolved as of
9/30/85
-Less than 6 months old .............. .       144                  98                   $ 49,835,297
-More than 6 months old
  -Preaward ......................... .         53               45                        15,925,668
  -Internal ........................... .        4                1                            20,999
TOTAL UNRESOLVED ................. .          201               144                      $ 65,781,964
                                                                                                        21
     3. Resolution Decisions on
        Financial Recommendations                                In accordance with GSA Order ADM 2030.2A, reso-
                                                                 lution decisions on financial recommendations con-
     Table 3 provides detailed information on the 139 audits     tained in contract audit reports result in resolved cost
     involving financial recommendations of $54,647,891          avoidance or recovery. Management commitments oc-
     identified in Table 2 as being resolved this period. No-    cur subsequently, at the time of contract settlement. For
     tably, $43,475,877 or approximately 80 percent was up-      internal audits, management commitments occur at the
     held in the audit resolution process.                       time of resolution.




                                                     Table 3.
                                        Resolution Decisions on OIG Audits
                                              Recommended          Resolved      Recommended           Resolved
                        GSA                       Cost               Cost            Cost                Cost
                      Program                   Avoidance          Avoidance       Recovery            Recovery

          PBS
          -Internal ................... .         $   747,210     $     2,000        $   406,997       $   163,989
          -Contract .................. .           17,071,462      11,497,474            620,431         1,902,431
                                                  $17,818,672     $11,499,474        $ 1,027,428       $ 2,066,420
          FSS
          -Internal ................... .         $     7,920     $                  $      1,026      $
          -Contract .................. .           14,457,067      11,176,739             283,545           268,004
                                                  $14,464,987     $11,176,739        $    284,571      $    268,004
          OIRM
          -Internal ................... .         $ 2,000,000     $                  $                 $
          -Contract .................. .            6,668,815       6,721,148          2,366,128         1,726,802
                                                  $ 8,668,815     $ 6,721,148        $ 2,366,128       $ 1,726,802
          Other GSA
          -Internal ................... .         $               $                  $ 9,900,000       $ 9,900,000
          -Contract .................. .               117,290         117,290
                                                  $    117,290    $    117,290       $ 9,900,000       $ 9,900,000

          TOTAL ...................... .          $41,069,764     $29,514,651        $13,578,127       $13,961,226


          TOTAL
          RESOLVED
          COSTS          $43,475,877




     4. Contract Audit Settlements
                                                                 commitments achieved in negotiations with contrac-
     Table 4 compares contract audit recommendations re-         tors. Overall, management commitments on GSA audits
     solved in the audit resolution process with management      represented 78 percent of the resolved amounts.




22
                                                   Table 4.
                                      Summary of Contract Audit Settlements
                                                                  Avoidance                            Recovery
                 GSA                      No. of            Costs      Management                 Costs    Management
               Program                   Reports           Resolved    Commitment                Resolved  Commitment
     PBS
     -Prior ..................                52           $11,939,055             $ 9,318,213   $1,315,106      $1,364,258
     -Current ...............                 19               982,208               1,139,618        7,294           7,294
                                               71          $12,921,263             $10,457,831   $1,322,400      $1,371,552
     FSS
     -Prior ..................                38           $10,428,988             $ 6,949,140   $1,649,477      $ 790,963
     -Current ...............                  5               541,200                 181,706                       2,932
                                               43          $10,970,188             $ 7,130,846   $1,649,477      $ 793,895
     OIRM
     -Prior ..................                  7          $ 4,761,187             $ 4,558,061   $               $ 315,432
     -Current ...............                  10              475,663                 336,747       1,663,769    1,663,769
                                               17          $ 5,236,850             $ 4,894,808   $1,663,769      $1,979,201
    Other GSA
    -Prior ..................                   2          $     117,290           $   117,290   $ 988,233       $ 499,999
    -Current ...............
                                                2          $     117,290           $   117,290   $ 988,233       $ 499,999

     TOTAL. .................                133           $29,245,591             $22,600,775   $5,623,879      $4,644,647*


     TOTAL
     MANAGEMENT
     COMMITMENTS            $27,245,422*
     'Includes $2,163,768 also reported under monetary results of civil actions.



Drawing upon the information presented in Tables 3                        September 30, 1985 and April 1, 1985 through Septem-
and 4, OIG audits involving GSA programs resulted in                      ber 30, 1985.
total management commitments to avoid $22,602,775                         Between December 31, 1984 and September 30, 1985,
and to recover $14,708,636.                                               Agency records show that $4,525,004 was recovered as
                                                                          a result of OIG contract audits and deposited in the
                                                                          Treasury. Between Aprill, 1985 and September 30, 1985,
5. Recoveries                                                             Agency records show that $3,108,647 was recovered
                                                                          and deposited in the Treasury.
The General Accounting Office (GAO) recommended
that OIG Reports to the Congress include data on actual                   6. Audit FoHowup
monetary recoveries, in addition to management com-
mitment information. Although such a requirement has                      GSA Order ADM 2030.2A places primary responsibility
not yet been instituted, the GSA OIG requested data                       for followup on the implementation of resolved audit
on actual audit recoveries from GSA's Office of Audit                     recommendations with the Audit Followup Official. The
Resolution.                                                               Office of Audit Resolution, Office of Policy and Man-
                                                                          agement Systems, acts as staff to the Audit Followup
In the past, the OIG reported these data for the periods                  Official in this function.
July through December and December through July due
to our understanding that more current data were not                      The OIG performs its own independent reviews of im-
available at the time of publication of this report. The                  plementation actions on a test basis. This period, the
Office of Audit Resolution recently advised that 6-month                  OIG performed 2 implementation reviews of PBS au-
data corresponding to our reporting periods are avail-                    dits. Management had successfully implemented the
able. Therefore, in order to bridge the gap between this                  recommendations contained in one of these reviews. In
and our last Report to the Congress, we are providing                     the other instance, our recommendations were not fully
recovery data for the periods December 31, 1984 through                   implemented.                                             23
     7. Investigative Workload
                                                                   In addition to these cases, the OIG received and eval-
     Table 5 presents detailed information on investigative        uated 180 complaints/allegations from sources other than
     workload by case category. The OIG opened 288 cases           the Hotline that involved GSA employees and pro-
     and closed 343 cases; only 10 of these cases were ad-         grams. Based upon an analysis ofthese allegations, OIG
     ministratively closed without referral.                       investigations were not warranted.




                                                          Table 5.
                                                   Investigative Workload
                             Case                             Cases Open      Cases           Cases       Cases Open
                            Category                            4/1/85        Opened          Closed        9/30/85

          White Collar Crimes ...................... .           281            127             148             260
          Other Crimes in GSA-Controlled Space ..... .            82             37              63              56
          Contractor Suspension/Debarment ......... .             35             24              31              28
          Employee Misconduct .................... .              69             63              75              57
          Other ................................... .             21             37              26              32
          TOTAL ................................. .              488            288             343             433



     Table 6 distributes the 288 new investigative cases          opened fell within the white collar crime category. Most
     opened this period (Table 5) by case category and GSA        of the new cases (87 percent) involved PBS and FSS
     program area. Notably, over 44 percent of the cases          programs.



                                                     Table o.
                                    Distribution of Cases Opened This Period
                             Case                                                                           Other
                            Category                             PBS            FSS           OIRM          GSA

          White Collar Crimes ...................... .            55             50               9             13
          Other Crimes in GSA-Controlled Space ..... .            25             11                               1
          Contractor Suspension/Debarment ......... .              9             13               2
          Employee Misconduct .................... .              47             13                               3
          Other ................................... .              9             18               1               9
          TOTAL ................................. .              145            105              12             26



     8. Referrals                                                  The OIG also referred 9 cases involving 19 subjects to
                                                                   either the Civil Division of the Department of Justice
     The OIG makes three types of referrals to officials out-      or a U.S. Attorney for civil fraud litigation considera-
     side GSA: criminal, civil, and investigative. During this     tion. The status of OIG civil referrals is as follows:
     period, we referred 83 cases involving 147 subjects to
     the Department of Justice or other authorities for crim-                                             Cases       Subjects
     inal prosecutive consideration. The status of OIG crim-           Pending Litigation Decision
     inal referrals is as follows:                                       as of 4/l/85 ............... .    7              7
                                           Cases    Subjects           Referrals .................... .    9             19
                                                                       Declinations ................ .     3              6
        Pending Prosecutive Decision                                   Accepted for Litigation ...... .    6              7
          as of 4/l/85 ............... .     34         71             Pending Litigation Decision
        Referrals .................... .     83        147               as of 9/30/85 .............. .     7            13
        Declinations ................ .      42          68
        Accepted for Prosecution ..... .     29          56
        Pending Prosecutive Decision                               The OIG made 18 case referrals to other Federal or State
24        as of 9/30/85 .............. .     46          94        agencies for further investigation or other action.
9. Administrative Referrals and                                   10. Contractor Suspensions
   Actions Involving GSA                                              and Debarments
   Employees                                                      The OIG continued its efforts to make the suspension
Frequently, OIG investigations disclose nonprosecuta-             and debarment process a more effective and more read-
ble wrongdoing on the part of GSA employees, con-                 ily used administrative procedure. This period, the OIG
tractors, or private individuals doing business with the          referred 4 cases involving 12 subjects for suspension
GSA. The OIG refers these cases to GSA officials for              and 19 cases involving 54 subjects for debarment. As a
administrative action.                                            result of these and prior referrals, management imposed
                                                                  11 suspensions and 57 debarments. Management dis-
During the period, we referred 231 cases involving 305            approved 3 suspensions.
subjects for administrative action. In addition, we re-
ferred 145 cases involving 182 subjects to GSA officials          The status of OIG suspension and debarment referrals
for informational purposes only.                                  is as follows:
                                                                     Suspensions                                          Cases      Subjects
The status of OIG administrative referrals is as follows:
                                                                     Pending as of 4/1/85 . . . . . . . . . .               1            3
                                       Cases   Subjects              Referrals.. .. . . .. .. .. .. .. .... .               4           12
                                                                     Action Completed. . . . . . . . . . . .                4           14
  Pending Decision as                                                Pending as of 9/30/85.. .. .... .                      1            1
    of 4/1/85 ...... " .......... .      72       101
  Referrals .................... .     231        305                Debarments                                           Cases      Subjects
  Actions Completed .......... .       252        340                Pending as of 4/1/85 . . . . . . . . . .              17          40
  Pending Decision as                                                Referrals. . . . . . . . . . . . . . . . . . . . .    19          54
    of 9/30/85 ................. .       51         66               Action Completed. . . . . . . . . . . .               19           57
                                                                     Pending as of 9/30/85 ...... '"                       17           37
Of the 231 cases referred for administrative action this
period, 130 cases (156 subjects) involved GSA employ-             11. Summary of Referrals
ees. As a result of these and prior referrals, management
took the following actions against GSA employees:                     by GSA Program Area
  Reprimands ................. .        35                        Table 7 summarizes OIG referrals this period by type
  Suspensions ................ .        16                        of referral and GSA program area. Notably, 452 subjects
  Terminations ................ .       20                        were referred on criminal and administrative matters.



                                                 Table 7.
                                      Summary of OIG Subject Referrals
                        GSA                                                                        Adminis-               Suspension/
                      Program                         Criminal                  Civil               trative                Debarment

     PBS ..................................                  64                     9                  171                      24
     FSS ..................................                  73                     4                   91                      40
     OIRM .................................                   3                     4                   12                       2
     Other GSA ............................                   7                     2                   31
                                                                                                       --
     TOTAL ................................                 147                   19                   305                      66



12. Criminal and Civil Actions                                    ments were reached in 6 cases involving 6 subjects,
                                                                  while judgments were entered in 3 cases involving 3
Cases accepted for criminal prosecution during this and           subjects.
prior periods resulted in 27 indictments/informations/            Table 8 summarizes individual criminal and civil actions
complaints and 33 successful prosecutions. Civil refer-           by GSA program area. In addition, there were 5 un-
rals from this and prior periods resulted in civil fraud          successful civil cases against 8 subjects and 4 unsuc-
complaints involving 3 individuals. In addition, settle-          cessful criminal cases against 4 subjects.




                                                                                                                                                25
                                                          Table 8.
                                            Summary of Criminal and Civil Actions
                                                                        Indictments/
                                  GSA                                  Informations/        Successful         Settlements/
                                Program                                  Complaints        Prosecutions        Judgments

           PBS .................................... .                          7                   11                 1
           FSS .................................... .                         19                   16                 2
           OIRM ................................... .                          1                    2                 3
           Other GSA .............................. .                          3                    4                 3
           TOTAL ................................. .                          30                   33                 9


     13. Monetary Results                                                  The amounts do not necessarily reflect actual monetary
                                                                           recoveries.
                                                                            In addition, the OIG identified for recovery $1,067,775
     Table 9 presents the amounts determined to be owed                     in money and/or property during the course of its
     the Government as a result of criminal and civil actions.              investigations.



                                                              Table 9.
                                                   Criminal and Civil Recoveries
                                                                          Criminal                Civil            Total

           Fines and Penalties ...................... .                   $ 8,000           $                  $     8,000
           Settlements and Judgments ............... .                                          2,348,685        2,348,685
           Restitutions ............................. .                    24,838                                   24,838
           TOTAL ................................. .                      $32,838           $2,348,685*         $2,381,523*
     'Includes $2,163,768 also reported as a management commitment to recover funds.




     14. OIG Subpoenas
                                                                            instituted three subpoena enforcement actions. U.S.
     During the period, 13 OIG subpoenas were issued. Also,                 District Courts ordered two of the subpoenas enforced;
     the OIG, in conjunction with local U.S. Attorney offices,              the other action is pending.




26
SECTION VII-REVIEW OF LEGISLATIO
A       ULATIO S
Section 4(a)(2) of the Inspector General Act of 1978 requires          -Suggested the addition of a requirement to ap-
the OIG to review existing and proposed legislation and regu-           portion expenses to help assure that funds for fa-
lations relating to the programs and operations of GSA. In              cilities and services are not expended for prohib-
order to fulfill this legislated responsibility, the OIG maintains      ited purposes.
a clearance system that ensures OIG review of all proposed
legislation, regulations, and internal directives having impact      • H.R. 2452, a bill to amend the Federal criminal code to
on any aspect of GSA operations.                                       impose a criminal penalty for unjustified physical injury
                                                                       by a Federal law enforcement officer. We indicated that
                                                                       the language in this bill needed additional clarifi-
A. Legislation/Regulations                                             cation. Specifically, we expressed concern that cer-
                                                                       tain key terms were too vague, particularly the
   Reviewed                                                            phrase "greater force than is necessary."

During the period, the OIG reviewed 371 legislative                  • H.R. 1201, the Revolving Door Reform Act of 1985, and
matters and 159 proposed regulations and directives.                   S. 385, the Federal Acquisition Officers Ethical Conduct
We provided substantive comments on 31 legislative                     Act of 1985. We opposed these bills as being too
matters and 30 regulations and directives.                             broad in terms of their coverage of employees (en-
                                                                       compassing individuals exercising no real discre-
The OIG legal staff primarily performed the legislative                tion in the procurement process), and too rigid in
reviews, seeking input from the other components as                    their approach to covered activities. We feel that
appropriate. All OIG staff offices participated in re-                 existing legislation (Le., 18 U.S.c. 207) adequately
viewing the proposed regulations and directives.                       protects the Government's interests without im-
                                                                       posing undue post-employment restrictions upon
B. Significant Comments                                                former Government employees.
                                                                     • Draft Bill No. 56, amendments to the Ethics in Govern-
The OIG provided significant comments on the follow-                   ment Act of 1978. We supported this draft bill, subject
ing legislative matters:                                               to suggested revisions. We recommended changes
  • S. 1135, a bill to amend 31 U.S.c. 3729 to increase the
                                                                       to:
     civil penalty authorized for false claims. We strongly            -Assure against a possible inadvertent weakening
     supported this bill because inflation has substan-                 of existing law; and
     tially eroded the impact of the present $2,000 pen-
     alty and diminiShed its effectiveness as a deterrent.             -Make confidential reports filed under the Act
                                                                        available to the Attorney General, U.S. Attorneys,
  • H.R. 2441, the Procurement Integrity Act of 1985. We                Inspectors General, or other appropriate officials
    strongly supported this bill to clarify and strengthen              for Federal law enforcement, investigative, or other
    existing civil and criminal provisions governing                    lawful purposes.
    the submission of false claims to the Government.
    We noted that the bill corrects certain weaknesses               • Draft Bill entitled Program Integrity Act. We strongly
    in present law by permitting civil actions against                 supported this draft bill providing Government-
    contractors' chief executive officers, where they                  wide authority for imposing civil monetary pen-
    knew or should have known that false cost or pric-                 alties via administrative action against individuals
    ing data were being submitted.                                     or entities defrauding the Government. We noted
                                                                       that the current draft is an improvement over prior
  • S, 1047, the Former Presidents Facilities and Services Re-         versions in that it imposes liability when a person
    form Act of 1985. We expressed general support for                 "knows or has reason to know" that a claim is false.
     this bill, noting that the provisions governing GSA-              It also drops the requirement of proof of actual
     provided services and facilities included additional              damages, and allows an assessment of twice the
     controls to help assure that such expenditures are                amount claimed, thus facilitating proof of that ele-
     proper. We also:                                                  ment. We recommended that the bill include an
     -Suggested revision of the delay/Congressional re-                explicit statute of limitations of 6 years from the
      view provision relating to the Archivist'S accept-               time the false claim or statement was made, and
      ance of gifts for Presidential archival depositories,            that the standard for referral to a hearing be changed
      in order to preclude inadvertent loss (due to the                from "probable cause" to "reasonable belief." We
      mandatory delay period) of an otherwise desirable                feel that the proposed administrative system is a
      donation;                                                        much needed alternative, supplementing criminal
                                                                       and civil fraud prosecutions by the Department of
     -Questioned the elimination of limitations and                    Justice. In our experience, numerous meritorious
      waiver requirements in the provisions relating to                cases have been declined for civil prosecution for
      pensions for spouses of deceased former Presi-                   a variety of reasons unrelated to the substantive
      dents; and                                                       merits of the case.                                         27
     • S. 1165, a bill to limit the employment of former Federal       self-certification. We suggested that certification
       Government procurement personnel by certain contractors.        should also be required at the time of award.
       While noting that this bill corrects some of the over-
       breadth problems of similar legislative proposals,           • H.R. 1459, a bill to prohibit the award of Federal contracts
       we expressed concern regarding the provisions es-              to persons who have violated certain judicial or National
       tablishing, under certain circumstances, an irre-              Labor Relations Board orders. We generally supported
       butable presumption of conflict of interest and an             this bill, but suggested that the "no other source"
       absolute 3-year prohibition on contractors employ-             exception to the prohibition be replaced by the
       ing Federal workers who performed specified pro-               "compelling reason" standard employed in the de-
       curement functions (broadly defined). We reported              barment regulation of the Federal Acquisition
       that existing legislation adequately protects the              Regulation.
       Government's interests, without imposing undue               • OMB Draft Bill, Simplified Competitive Acquisition Tech-
       restrictions on former Government employees.                   nique (SCAT) Act of 1985, a bill to streamline the pro-
     • H.R. 1975, the Government Contract Reform and Waste            curement process in purchases of less than $5 million.
       Prevention Act of 1975. We supported the intent of             Overall, we expressed strong disapproval of the
       this bill, but felt that a number of important revi-           proposed legislation, as presently drafted. We
       sions were necessary before we could support its               strongly objected to the provision prohibiting pre-
       enactment. The areas in which we proposed spe-                 award audits. In addition, we regarded the accom-
       cific changes were:                                            panying OMB Policy Statement as being overly
                                                                      rigid.
       -The prior notice and 6 month delay provisions
        (some of the bill's provisions would have left the          • Draft Bill No. 72, a bill to revise the time requirement
        statute internally inconsistent);                             for payment of transportation services provided the Gov-
                                                                      ernment, to authorize the Department of Defense to con-
       -The expansion of permissible qui tam actions (we              duct audits of transportation services, and for other pur-
        generally supported the notion of some expan-                 poses. We strongly supported the principal concept
        sion, but opposed the total relinquishment of Gov-            of the bill: authorizing audits of invoices for trans-
        ernment authority to determine which cases should             portation services prior to payment (presently pro-
        be pursued); and                                              hibited by law). We reserved comment on those
       -The revision of recovery limits (we supported ad-             provisions that would authorize the Department of
        dition of the new discretionary provision, but op-            Defense to conduct transportation audits.
        posed the proposed percentage limitations as de-            • H.R. 3077, the Inspector General Amendments of 1985.
        creasing the incentive for potential qui tam                  We strongly supported the sections of this bill that
        plaintiffs) .                                                 would: (1) establish new offices of Inspector Gen-
                                                                      eral under the IG Act within the Departments of
     • S. 917, a bill to amend the Omnibus Crime Control and
       Safe Streets Act of 1960. We strongly supported this           Energy, Health and Human Services, Justice, and
       bill to clarify existing law governing death benefits          Treasury, and the Federal Emergency Management
       payable to public safety officers. The bill improves           Agency; and (2) provide oath administration au-
       coverage for deaths proximately caused by official             thority to Inspector General officials. We expressed
       duties by clearly covering deaths resulting from               reservations about Sections 3 and 4 of the bill, which
       extreme physical stress on a single occasion (or               would, respectively, extend IG Act protections and
       during a single event).                                        requirements to virtually all "audit units" in all
                                                                      Federal establishments, and establish new require-
     • Draft Bill 62, Department of Justice draft bill concerning     ments with respect to reports of the Inspectors Gen-
       procurement fraud. We strongly supported the ob-               eral. In our detailed comments, we noted that:
       jectives of this bill that would, among other things,
       provide a comprehensive system for administra-                                                 every audit/investi-
                                                                      -It is at least questionable that
       tively imposing and adjudicating penalties and as-              gative unit in every agency ought properly assume
       sessments relative to false claims and false state-             the full authorities and responsibilities of a sta-
       ments made to Executive agencies.                               tutory OIG. We suggested that such determina-
                                                                       tions should be made on a case by case basis,
     • Cabinet Council on Management and Administration                rather than in the blanket fashion contemplated
       (CCMA) Proposed Legislation. We supported this pro-             by the present bill.
       posed legislation and suggested two changes:
                                                                      -Using audit references to cover both audit and
       -Amend the final clause of the proposed amend-                  investigative functions may be inconsistent with
        ment to Section 322 of the Economy Act of 1932                 existing and past practices, and lead to confusion
        to eliminate the 15 percent of Fair Market Value               and potential abuses.
        limitation on rentals; and
                                                                      -Definitions proposed for uniform application to
       -Raise the threshold necessitating the submission               OIGs and IG reports, particularly in the area of
        of explanatory statements to Congress for personal             audit resolution, represent marked changes from
        property disposals by negotiation.                             existing practice and may create problems not
                                                                       present under the current system.
     • H.R. 1178, Equity in Small Business Size Standards. We
       opposed this bill, because it provides for size de-            -The bill needs to be amended to more clearly ad-
28     termination only at the time of bid submission and              dress cost avoidance issues and define cost avoid-
   ance ineligible costs, unsupported costs, disal-              identify and recover excessive profits under Federal
   lowed costs, and other cost avoidance data and                contracts, as well as curb abuses in the acquisition
   terminology.                                                  process, we expressed reservations as to whether
                                                                 this bill was the best approach to the problem. We
  -The proposed reporting requirements may be du-                noted a number of specific weaknesses in the bill,
   plicative and require information tracking and re-            induding limited subpoena power and vagueness
   porting that would, in fact, be of little utility to          of key terms. We suggested that further review of
   Congress. Instead, we recommended that OIG re-                this proposal was in order, particularly, the s. 1587
   porting occur on an exception basis, with IGs in-             proposal as contrasted with the system established
   forming Congress of problem cases within given                under the Renegotiation Act of 1951.
   areas.
                                                               • H.R. 2909, a bill to establish an Inspector Generalfor the
• S. 1587, the proposed Federal Contract Fair Price Com-         U.S. Postal Service. We strongly supported this bill,
  mission Act of 1985, a bill to establish a Federal commis-     providing technical comments correcting an ap-
  sion that would review Federal contracts and recover prof-     parent error in the bill regarding the respective roles
  its deemed to be excessive. While we support efforts to        of the Inspector General and Comptroller General.




                                                                                                                              29
     SECTION VIII-OTHER OIG ACTIVITIES
     In addition to detecting problems in GSA operations, the OlG          detected instances of potential fraud, waste, and abuse
     is responsible for initiating actions to prevent fraud, waste, and    that are currently under investigation. We identified:
     abuse and to promote economy and efficiency. This section details     deficient procedures for certifying utility bills; imprest
     the DIG program responding to these legislated prevention re-         funds not in balance; property not controlled; improve-
     sponsibilities; presents our initiatives to maximize the effective-   ments needed over maintenance management and op-
     ness and efficiency of DIG operations; and details our involve-       erating equipment controls; overtime not properly ap-
     ment in projects sponsored by the President's Council on Integrity    proved; inadequate division of responsibility in
     and Efficiency (PCIE).                                                procurements; splitting of procurements and contracts
                                                                           to avoid contract authority limitations; and contracts
                                                                           awarded without proper competition.
     A.. DIG Prevention Program                                            In 13 reports issued between April 10, 1985 and Sep-
                                                                           tember 19, 1985, the OIG offered recommendations to
     The OIG prevention program is comprised of four ele-                  correct these and other deficiencies. The OIG plans to
     ments that simultaneously focus on minimizing oppor-                  issue a consolidated report (based on the eight concur-
     tunities for fraud, waste, and abuse and promoting                    rent audits) on overall regional management of the pro-
     awareness among GSA employees. This four-pronged                      gram. We anticipate that the consolidated report will be
     approach consists of:                                                 highlighted as a significant audit in our next semian-
                                                                           nual report.
       • Defining areas vulnerable to fraud, waste, and abuse
         and assessing the degree of vulnerability;
                                                                           2. Anticipation
       • Anticipating potential problem areas and perform-
         ing front-end reviews to help ensure that programs                OIG anticipation activities this period focused on re-
         will operate within applicable laws, policies, and                view of proposed legislation and regulations (Section
         procedures;                                                       VII) and continued preaward coverage of GSA's leasing
       • Educating GSA employees on the manifestations                     program. These activities stem from the belief that many
         of fraud and the mechanisms for reporting suspi-                  of tomorrow's problems can be avoided through deci-
         cions or allegations to the OIG; and                              sive action today.
        III   Communicating the OIG presence and establishing              The ~IG's program for reviewing leases prior to award
              mechanisms that promote a dialogue between GSA               provides front-end assurance that GSA is adhering to
              employees and the OIG.                                       regulations and procedures before awarding selected
                                                                           leases involving annual rentals in excess of $200,000.
                                                                           The reviews, although purely advisory in nature, limit
     1. Definition                                                         opportunities for fraud, waste, and abuse in the leasing
                                                                           area.
     The OIG considers the identification of vulnerable areas
     to be a major prerequisite to the prevention of fraud,                The program achieved the following results during the
     waste, and abuse. This period, OIG definition activities              reporting period:
     included in-depth review of buildings management                        Lease   proposals   submitted for review .......... 71
     operations.                                                             Lease   proposals   reviewed ..................... 25
     The buildings management program is considered a                        Lease   proposals   with major deficiencies ......... 3
     vulnerable area, due to the major frauds detected in the                Lease   proposals   with minor deficiencies ........ 10
     late 1970s. The OIG reviews this program on a regular                   Lease   proposals   with no deficiencies ........... 12
     basis as part of our ongoing effort to follow up on pro-              Some of the major deficiencies identified through OIG
     grams that exhibited fraud in the past and prevent re-                preaward advisory reviews included: incomplete and
     cmrences in the future.                                               outdated market surveys; failure to review handicapped
     This period, the OIG reviewed the operations of six                   accessibility standards; and outdated appraisals.
     buildings management field offices nationwide. In ad-                 The preaward lease review program provides other tan-
     dition, as a new prevention initiative, teams comprised               gible benefits to GSA. This period, for example, a pre-
     of at least one auditor and one inspector concurrently                award review of a proposed lease extension disclosed
     reviewed eight field offices in one GSA region in order               that GSA did not receive a $259,778 rent credit earned
     to assess overall operations at the regional level. The               during the initial 5-year lease term. When advised of
     review was prompted by an operational survey, per-                    this finding, management indicated they would recover
     formed during January and February 1984, identifying                  the credit.
     serious deficiencies in buildings management opera-
     tions at two field offices in this region.
                                                                           3. Education
     The reviews found a wide range of problems, mainly
     attributable to management's failure to follow pre-                   Integrity Awareness Briefings comprise the ~IG's pri-
     scribed GSA operating procedures. Moreover, the OIG                   mary vehicle for educating employees in the manifes-
30
tations of fraud and abuse. Individual briefings explain
the statutory mission of the OIG and the functions ex-
                                                             Be OIG Management
ecuted by each of our component offices. In addition,              Initiatives
through case studies and slides, the briefings expose
GSA employees to actual instances of white collar crime      OIG management initiatives seek to promote economy and ef-
in the GSA and other Federal agencies. They conclude         ficiency in OIG operations and to enhance coordination between
with a presentation on bribery that teaches employees        the audit and investigations functions. Major initiatives are
how to recognize bribery attempts; how to respond to         discussed in the paragraphs that follow.
them; and the employee's potential role in an ensuing
investigation.
                                                             1. Field Office Appraisals
Since the inception of this program in 1981, over 5,780
GSA employees have attended Integrity Awareness              The ~IG's program for reviewing the economy, effi-
Briefings. This total includes the 817 Central Office and    ciency, and effectiveness of its component offices con-
regional employees attending 38 briefings this period.       tinued this period. Interdisciplinary peer groups ap-
                                                             praised the operations of the Atlanta and Denver field
This program is complemented by a separate education         audit and investigations offices, in accordance with our
vehicle directed at newly appointed GSA management           goal of reviewing each of our field offices on a 3-year
officials. Through a presentation entitled "The IG Story,"   cycle.
these officials learn the impetus behind the creation of
statutory IGs, the responsibilities and authorities vested
in the IG, and the organizational structure used to ex-      2. Management Consulting Group
ecute these responsibilities. More importantly, "The IG
Story" emphasizes the commonality of purpose shared          As reported last period, the OIG initiated a major in-
by management and the OIG in the pursuit of greater          ternal study of the effectiveness and efficiency of its
Government economy and efficiency.                           headquarters organization and staffing. The study was
                                                             prompted by concern that, as a result of staffing reduc-
                                                             tions experienced by the OIG, the OIG headquarters
4. Communication                                             structure was no longer properly aligned with the OIG
                                                             operations it supported.
A free flow of information between GSA employees and         This study led to a major reorganization this period.
the OIG is a vital prevention and detection element.         The reorganization consisted of:
Recognizing this fact, the OIG, as previously reported,
issued a Hotline brochure and posted Hotline posters           • Consolidation of the functions of the Office of the
in all GSA buildings nationwide to ensure that GSA               Executive Director and the IG Personnel Office
employees and the public are aware of the OIG Hotline            within the Office of Policy, Plans, and Management
and its purpose. The OIG also continues to issue bro-            Systems.
chures on our Reports to the Congress so that employees        • Realignment of internal audit responsibility among
and the public are apprised of OIG activities and see            three internal audit divisions rather than the six
the results-oriented nature of our work.                         divisions previously maintained.
This period, the OIG developed a practical ethics bro-         • Relocation of more than 20 auditors from head-
chure illustrating the application of GSA's Standards of         quarters to perform operational functions in our
Conduct in situations frequently encountered by GSA              Washington, D.C. field audit office.
employees. The brochure is currently in the production
stage, and should be published during the next re-           These changes yielded a streamlined headquarters
porting period. All current and new GSA employees            structure compatible with our reduced operating staff.
will receive copies.                                         Significantly, the reorganization was accomplished
                                                             without a reduction-in-force or major personnel
The OIG also developed and issued a second Hotline           dislocations.
poster to sustain interest in the Hotline message. It is
being alternately posted for 6-month periods with our
original poster.
                                                             3. IGIS Task Force
This period, we received 411 Hotline calls and letters.      The Inspector General Information System (IGIS) is the
Of these, 139 complaints warranted further action. We        computer-based management information and statis-
also received 8 referrals from the GAO and 12 referrals      tical reporting system of the GSA OIG. It has been op-
from other agencies that required further action. These      erational since 1983 using outside computer facilities.
159 complaints/allegations were referred as follows:
                                                             As reported last period, the OIG embarked on two initi-
   Audits/Investigations ......................... 75        atives relating to IGIS:
   GSA Program Officials ........................ 70
   Other Agencies ............................... 14           • Procurement of state-of-the-art office automation
                                                                 equipment so that the OIG can operate IGIS in-
The remaining 272 Hotline complaints required no fur-            house and thereby take advantage of substantial
ther action and were closed.                                     savings over the next 5 years.

                                                                                                                              31
       • Establishment of an interdisciplinary IGIS task force             • Methods that can be used by IG organizations to
         to review whether IGIS fully supports the OIG's                     increase the use of technical experts.
         information needs, and to identify any unnecessary
         IGIS processing in terms of data elements stored                This period, the project team analyzed responses to a
         and reports generated.                                          questionnaire designed to obtain information and opin-
                                                                         ions on the use of technical experts within 18 OIGs.
     This period, the necessary office automation equipment              The results of this analysis were compiled in a draft
     was installed, and the process of converting IGIS to                report, which was submitted to the PCIE Prevention
     operate as an in-house system was begun. In addition,               Committee in September 1985.
     the task force summarized its findings in a June 1985
     report that offered a series of recommendations for mod-
     ifying IGIS. The Acting IG approved the recommen-                   4. Review of Federal
     dations and, as a result, numerous changes are being
     made to simplify processing and better meet user needs.
                                                                            Telecommunications System
                                                                            (FTS) Utilization
     c. Projects Sponsored by                                            The GSA OIG is the lead agency for this PCIE review
                                                                         aimed at:
            the pcrn                                                       • Evaluating the utilization of telecommunications
     The OIC continued to participate in interagency projects spon-          resources; and
     sored by the PCIE. Specific involvement this period is delineated     • Identifying ways of reducing telecommunications
     by project in the paragraphs that follow. In addition to these          costs through more effective and efficient manage-
     efforts, OlC staff members also provided ongoing support to             ment of these resources.
     several PCIE committees.
                                                                         Seventeen agencies are participating in this two-phased
     1. Auditor Training Subcommittee                                    review, including the Department of Defense and most
                                                                         major civilian agencies.
     Under the aegis of the PCIE Training Committee, the                 This period, most of the participating agencies com-
     GSA OIG was the lead agency in the development of a                 pleted Phase I of the effort, which evaluates agency
     training course entitled "Allocating Audit Resources                controls over the ordering, receipt, and verification of
     Through Operations Risk Analysis." The training course              telecommunications services, and started Phase II, which
     teaches auditors how to apply the best principles of                examines controls over the use of telecommunications
     public and private sector auditing in developing com-               resources. In addition, the project team is examining
     prehensive audit plans; planning and performing in-                 telecommunications controls in use by State govern-
     dividual audits; and evaluating the audit process.                  ments and private industry for possible application
     The project was completed this period with the issuance             within the FTS.
     of the comprehensive training manual on the course
                                                                         The effort will culminate in individual agency reports,
     methodology.
                                                                         scheduled for issuance in December 1985, followed by
                                                                         a consolidated report in early 1986.
     2. Productivity Data
        Collection Formats
                                                                         5. Model Prevention Plan
     The GSA OIG was the lead agency on this PCIE project
     designed to: develop uniform OIG productivity meas-
                                                                            Follow-Up Project
     ures, and promote the use of recurring productivity
                                                                         The GSA OIG is participating in the Prevention Com-
     analysis. The project reflected the OIG community's em-
                                                                         mittee Model Prevention Plan (MPP) Follow-up Proj-
     phasis on improving productivity and thereby obtain-
                                                                         ect. The overall objective is to review agencies/depart-
     ing maximum impact from its resources.
                                                                         ments' progress in implementing the MPP, which OMB
     On May 8, 1985, the project was completed with the                  transmitted to them in April 1984.
     distribution of a productivity data collection package to
                                                                         This period, the project team interviewed 20 agencies/
     members of the PCIE. The data collection package has
                                                                         departments and summarized the results in a draft re-
     since become the foundation for a PCIE-wide produc-
                                                                         port. The report, which was approved by the Prevention
     tivity program.
                                                                         Committee, offers four possible options relative to fur-
                                                                         ther action on the MPP and includes the Prevention
     3. Technical Experts                                                Committee's recommendation on the options to be
     The GSA OIG participated in this PCIE Prevention                    adopted. The final project report will include an ap-
     Committee project aimed at determining:                             pendix detailing the exemplary practices instituted by
                                                                         various agencies. This appendix, currently being pre-
       • The extent to which IG organizations use technical              pared, will provide insight on how agencies can en-
         experts in performing audits, investigations, and               hance or supplement ongoing prevention efforts by
         inspections;                                                    adopting these practices.
       • The feasibility/desirability of increasing the use of           The report will be distributed to the PCIE and OMB
32       technical experts by IG organizations; and                      once the appendix has been finalized.
6. Study of Paperwork and Staffing
   Requirements of Internal
   Control Implementation                               The study identified, among other findings, that imple-
                                                        mentation of the Act required tremendous personnel
In conjunction with the PCIE, the President's Council   resources and financial expenditures, and created vo-
on Management Improvement (PCMI) studied the pa-        luminous paperwork. In addition, the study high-
perwork and staffing requirements associated with the   lighted that OMB Circulars A-123 and A-127 contain
implementation of the Federal Managers' Financial In-   overlapping requirements and inconsistent terminol-
tegrity Act. GSA's Acting IG served on the PCMI task    ogy. The task force is currently drafting a new circular,
force performing the effort.                            consolidating the two.




                                                                                                                    33
APPENDICES
     APPE                                       IT REP RTRE ISTER
     Assignment                                                                                           Date of
     Number       Title                                                                                   Report


     PBS          Contract Audits
     A50328       Preaward Audit of Cost or Pricing Data: Day's Cleaning Service, Solicitation No. RFP-   04/01185
                  OPR-9PPC-85-02095
     A50252       Preaward Audit of Architect and Engineering Services Contract: PKP Engineers, P.c.,     04/02/85
                  Contract No. GS-11B-49020
     A40802       Postaward Audit of Concession Contract: ARA Food Services Co., Contract No. GS-         04/04/85
                  02B-18345 for the Period 5/18/81 to 5/17/86
     A50105       Preaward Audit of Lease Alteration Proposal: Gateway Center Corporation, Lease No.      04/05/85
                  GS-03B-6148
     A50289       Preaward Audit of Lease Alteration Proposal: Gateway Center Corporation, Lease No.      04/05/85
                  GS-03B-6148
     A50097       Pre award Evaluation of Architect and Engineering Services Contract: Mueller Asso-      04/ll/85
                  ciates, Inc., Contract No. GS-IIB-49023
     A50296       Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Crystal In-      04/12/85
                  dustrial Maintenance Company, Inc., Solicitation No. IP-PCMA-8536
     A50327       Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Professional     04/12/85
                  Technical Services, Inc., St. Louis, Missouri, Solicitation No. GS-06P-57560
     A50360       Preaward Audit of Lease Escalation Proposal: C & C Investments, Lease No. GS-09B-       04/12/85
                  06600
     A50361       Pre award Audit of Lease Escalation Proposal: C & C Investments, Lease No. GS-09B-      04/12/85
                  82252
     A50268       Preaward Audit of Architect and Engineering Services Contract: Monroe & Lefebvre        04/15/85
                  Architects, Inc., Kansas City, Missouri, Solicitation No. GS-06B-62230
     A50395       Pre award Audit of Lease Escalation Proposal: Republic National Bank Building Trust,    04/17/85
                  Lease No. GS-04B-20005
     A50341       Preaward Audit of Change Order Proposal: Tougher Industries, Inc., Contract No. GS-     04/18/85
                  01B-02294
     A50237       Pre award Audit of Change Order Proposal: J. F. Cavanaugh Company, Contract No.         04/19/85
                  GS-05BC-82692
     A50180       Audit of Termination Proposal: Donald R. Herb, Contract No. GS-02B-23121                04/22/85
     A50318       Preaward Audit of Architect and Engineering Services Contract: ZBA, Inc., Contract      04/25/85
                  No. GS-05BC-90477
     A50372       Pre award Audit of Architect and Engineering Services Contract: HTAlBCM Associates,     04/25/85
                  Inc., Solicitation No. INH-78665
     A50299       Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Glow Jan-        04/29/85
                  itorial Service, St. Louis, Missouri, Solicitation No. GS-06P-57531
     A50343       Pre award Audit of Architect and Engineering Services Proposal: EBL Engineers, Inc.,    04/30/85
                  Project No. IMD-16261
     A50347       Preaward Audit of Lease Escalation Proposal: Pasco Fisheries Land Company, Ltd.,        05/06/85
                  Lease No. GS-lOB-04569
     A50349       Preaward Audit of Architect and Engineering Services Proposal: Sherertz, Franklin,      05/06/85
                  Crawford, Shaffner, Project No. IVA-56166
     A50344       Preaward Audit of Architect and Engineering Services Contract: Alpha Corporation,       05/07/85
                  Contract No. GS-llB-49029
36
A50340   Preaward Audit of Change Order Proposal: Hof Construction Company, Inc., St. Louis,      05/08/85
         Missouri, Contract No. GS-06B-43110
A50371   Preaward Audit of Cost or Pricing Data: Bradley Construction Company, Inc., Contract     05/09/85
         No. GS-05BC-82791
A50248   Preaward Audit of Change Order Proposal: Spencer, White & Prentis, Inc., Second          05/13/85
         Tier Subcontractor to Terminal Construction Corp., PDL 18 and 21, Contract No. GS-
         02P-23256
A50415   Pre award Audit of Architect and Engineering Services Contract: Luckett & Farley,        05/16/85
         Contract No. GS-04B-84257
A50380   Audit of Contractual Provisions: Lloyd Corporation, Ltd., Contract No. GS-lOB-05194      OS/22/85
A50386   Pre award Audit of Small Business Administration 8(a) Pricing Proposal: Hyde's Se-       OS/23/85
         curity Services, Inc., Contract No. GS-04B-85430
A50267   Preaward Audit of Lease Escalation Proposal: ITR Properties of NYC, Inc., Lease No.      OS/24/85
         GS-02B-17697
AS0387   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Multivac,         05/30/85
         Inc., Contract No. GS-llC-50030
A50412   Audit of Termination Proposal: Saturn Contracting Company, Inc., Contract No. GS-        05/30/85
         IIB-88349
A50463   Pre award Audit of Lease Escalation Proposal: H. K. Enterprises, Inc., Lease No. GS-     05/30/85
         04B-15282
A50149   Preaward Audit of Cost or Pricing Data: Federal Plaza Associates, Lease No. GS-05B-      05/31185
         13381
A50413   Preaward Audit of Architect and Engineering Services Proposal: Ballinger Company,        05/31185
         Project No. IPA-56023
A50414   Preaward Audit of Architect and Engineering Services Contract: J. N. Pease Associates,   05/31185
         Contract No. GS-04B-84255
A50476   Pre award Audit of Lease Escalation Proposal: Fox & Carskadon, Inc., Lease No. GS-       06/04/85
         04B-20729
A50160   Preaward Audit of Change Order Proposal: Terminal Construction Corp., Contract           06/05/85
         No. GS-02P-23256
A50477   Preaward Audit of Lease Escalation Proposal: Koser Properties, Inc., Lease No. GS-       06/07/85
         04B-15149
A50355   Preaward Audit of Lease Escalation Proposal: Westwood Joint Venture No.4, Lease          06/12/85
         No. GS-03B-60031
A50454   Preaward Audit of Cost or Pricing Data: Eastern Services, Inc., Solicitation No. GS-     06/17/85
         llC-50045
A50472   Preaward Audit of Small Business, Administration 8(a) Pricing Proposal: American         06/17/85
         Business Communications, Inc., Grandview, Missouri, Solicitation No. GS-06P-52150
A50319   Pre award Audit of Architect and Engineering Services Contract: Cohen-Karydas &          06/25/85
         Associates, Chartered, Contract No. GS-llB-59000
A50354   Preaward Audit of Overhead Expense and Rate: Spruell Development Company (Prince         06/25/85
         George Center, Inc.), Lease No. GS-03B-552
A40768   Preaward Audit of Change Order Proposal: Master Security Services, Inc., Contract        06/26/85
         Nos. GS-09B-00596, GS-09B-00634, and GS-09B-00680
A50440   Preaward Audit of Lease Escalation Proposal: Gregson Real Estate, Managing Agent         06/26/85
         for Rumelle Commercial, Inc., Lease No. GS-09B-75762
A50409   Preaward Audit of Lease Escalation Proposal: Linfield Properties, Lease No. GS-09B-      06/28/85
         77516
A50221   Postaward Audit of Cost Reimbursable Contract: See Clear Maintenance Corporation,        07/08/85
         Subcontractor to the Small Business Administration, Contract No. GS-02B-24227(NEG)
         for the Period 9/1183 to 7/31185
                                                                                                             37
     A50499   Preaward Evaluation of Pricing Proposal: Rogers, Nagel, Langhart, Inc., Project No.       07/12/85
              I-CO-85-190
     A50364   Preaward Audit of a Claim for Increased Costs: Gem Steel Erectors, Inc., Second Tier      07/17/85
              Subcontractor to Terminal Construction Company, Contract No. GS-02P-23256
     A50439   Preaward Audit of Lease Escalation Proposal: Lamar Management, Inc., Lease No.            07/17/85
              GS-03B-05707
     A50461   Audit of Termination Proposal: Werres Corporation, Contract No. GS-IIB-42089              07/17/85
     A50366   Preaward Audit of a Claim for Increased Costs: Steeleo, Subcontractor to Terminal         07/24/85
              Construction Corp., Contract No. GS-02P-23256
     A50525   Preaward Audit of Change Order Proposal: Blake Construction Co., Inc., Contract No.       07/24/85
              GS-llB-08981, Change Order No. 6PDL
     A50492   Pre award Audit of Small Business Administration 8(a) Pricing Proposal: Handyman          07/31185
              Building Maintenance Co., Inc., Contract No. GS-lOP-51339
     A50464   Preaward Audit of Cost or Pricing Data: Burks Cleaning Services, Solicitation No.         08/09/85
              GS-lOP-51335
     A50556   Preaward Audit of Architect and Engineering Services Contract: KKBNA, Inc., Federal       08/09185
              Records Center Extension, Contract No. GS-06B-83001
     A50555   Preaward Audit of Architect and Engineering Services Contract: KKBNA, Inc., Ad-           08/12/85
              jutant General Publications Center Extension, Contract No. GS-06B-83001
     A50367   Preaward Audit of a Claim for Increased Costs: Rosakranse Masonry, Inc., Contract         08/14/85
              No. GS-02B-I7188
     A50365   Preaward Audit of a Claim for Increased Costs: Steeleo, Subcontractor to Terminal         08/15/85
              Construction Corp., Contract No. GS-02P-23256
     A50470   Preaward Audit of Architect and Engineering Services Contract: Hellmuth, Obata,           08/16/85
              and Kassabaum, Inc., St. Louis, Missouri, Solicitation No. GS-06B-83001
     A50471   Preaward Audit of Architect and Engineering Services Contract: Hellmuth, Obata,           08/16/85
              and Kassabaum, Inc., 51. Louis, Missouri, Solicitation No. GS-06B-83001
     A50517   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Superb             08/2l/85
              Maintenance Service, Inc., Contract No. GS-04B-84675
     A50462   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Keep Klean         08/22/85
              Janitorial Service, Contract No. GS-07B-21814
     A50484   Audit of Termination Proposal: Truland Corporation, Contract No. GS-02B-I7212             08/22/85
     A50315   Pre award Audit of Lease Alteration Proposal: Washington Square Limited Partnership,      08/23/85
              Contract No. GS-l1B-40054
     A50545   Pre award Audit of Cost or Pricing Data: A-I Maintenance Service Company, Contract        08/23/85
              No. GS-05B-42577
     A50549   Preaward Audit of Lease Escalation Proposal: Bay View Federal Savings and Loan            08/28/85
              Association, Lease No. GS-09B-76503
     A50566   Preaward Audit of Lease Escalation Proposal: Detroit Associates Limited Partnership,      08/28/85
              Lease No. GS-05BR-9585
     A50403   Audit of Termination Proposal: S. C. Painting Company, Contract No. GS-llB-28094          08/29/85
     A50486   Preaward Audit of Change Order Proposal: DeMour Construction Corp., Subcon-               08/29/85
              tractor to Terminal Construction Corp., PDL 34, Contract No. GS-02P-23256
     A50474   Pre award Audit of Lease Alteration Proposal: P & S Partnership,   st. Louis, Missouri,   09/05/85
              Lease No. GS-06B-14033
     A50513   Audit of Termination Proposal: Alice Roofing and Sheet Metal Works, Inc., Contract        09/09/85
              No. GS-03B-49013
     A50526   Preaward Audit of Architect and Engineering Services Contract: Settles Associates,        09/10/85
              Inc., Contract No. GS-IIB-59009
     A50411   Preaward Audit of Lease Alteration Proposal: 12th and L Street Limited Partnership,       09l1l/85
              Lease No. GS-03B-05729
38
A50627    Preaward Audit of Architect and Engineering Services Contract: Bibb and Associates,      09/13/85
          Inc., Overland Park, Kansas, Solicitation No. GS-l1B-49025
A50628    Preaward Audit of Architect and Engineering Services Contract: Bibb and Associates,      09/13/85
          Inc., Overland Park, Kansas, Solicitation No. GS-l1B-49025
A50542    Pre award Audit of Change Order Proposal: George A. Fuller Company, Contract No.         09/17/85
          GS-02P-23364
A50604    Preaward Audit of Architect and Engineering Services Contract: Larsen Engineers,         09/19/85
          Inc., Contract No. GS-llB-59001
A50577    Pre award Audit of Architect and Engineering Services Contract: Alaska Construction      09/23/85
          Management, Solicitation No. GS-lOP-02729
A50469    Preaward Audit of Lease Escalation Proposal: Parkside Plaza Redevelopment Cor-           09/24/85
          poration, St. Louis, Missouri, Lease No. GS-06B-14092
A50576    Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Big Boy           09/24/85
          Facilities and Maintenance Services, Inc., Solicitation No. GS-IOP-51338
A50326    Preaward Audit of Architect and Engineering Services Contract: Stone, Marraccini         09/30/85
          and Patterson/Smith-Enpzeroph, Inc., Joint Venture, St. Louis, Missouri, Solicitation
          No. GS-06P-72000
A50336    Preaward Audit of Architect and Engineering Services Contract: Ross & Baruzzini,         09/30/85
          Inc., St. Louis, Missouri, Solicitation No. GS-06P-72000
A50337    Preaward Audit of Architect and Engineering Services Contract: Construction Value        09/30/85
          Specialists, Inc., S1. Louis, Missouri, Solicitation No. GS-06P-72000
A50339    Preaward Audit of Architect and Engineering Services Contract: Alper Associates,         09/30/85
          Inc., St. Louis, Missouri, Solicitation No. GS-06P-72000
A50374    Preaward Audit of Architect and Engineering Services Contract: Stone, Marraccini         09/30/85
          and Patterson, Solicitation No. GS-06P-72000(NEG)
A50396    Pre award Audit of Architect and Engineering Services Contract: Cini-Grissom As-         09/30/85
          sociates, Inc., Solicitation No. GS-06P-72000(NEG)
A50560    Preaward Audit of Architect and Engineering Services Contract: Summer Consultants,       09/30/85
          Inc., Contract No. GS-llB-56070


PBS       Internal and Inspection Audits
A50110    Review of Manual System for Monitoring Multi-Unit Leases in Region 2                     04/09/85
A50041    Review of the Louisville, Kentucky Buildings Management Field Office, Region 4           04/10/85
A40154    Review of Delegation of Building Operations, GS Building                                 04/16/85
A50037    Review of Buildings Management Field Office, Buffalo, New York                           04/16/85
A50359    Preaward Lease Review: 1500/1530 Broadway, Oakland, CA, Lease No. GS-09B-38655           04/22/85
A40402    Letter Report on Planning and Prioritizing PBS Real Property Projects                    04/23/85
A50402    Preaward Lease Review: Corporate Center North Indianapolis, Indiana, Lease No.           04/26/85
          GS-05-14296
A50407    Advisory Report on Conversion of Negotiated Lease Escalation Clause to Consumer          04/26/85
          Price Index
A4067 1   Review of the Region 4 Buildings Management Atlanta West Field Office                    05/03/85
A50110    Review of Manual System for Monitoring Multi-Unit Leases                                 05/03/85
A50110    Review of Manual System for Monitoring Multi-Unit Leases, Region 9                       05/07/85
A50286    Interim Report-Review of Public Buildings Service Inspection Services Contracts,         05/17/85
          Boston, Massachusetts
A40795    Review of Architect!Engineer Construction Inspection Services, National Capital Region   OS/20/85
A40192    Review of Buildings Management Field Office, Battery Park, New York, Region 2            05/23/85

                                                                                                              39
     A50452    Review of the Verification of the Monthly GSA Form 3163, Operational Activity Re-       OS/23/85
               ports-Federal Protective Safety Division
     A40284    Review of Energy Usage in Leased Buildings, Region 5                                    05/30/85
     A50449    Preaward Lease Review: 555 Lordship Boulevard, Stratford, CT, Lease No. GS-             05/30/85
               OlB(PEL)-03457(NEG)
     A50452    Review of Federal Protection and Safety Division's Operations Activity Reports          05/31185
     A40690    Review of Five Lafayette Fisher Properties in Chicago, Illinois                         06/03/85
     A40620    Review of Payments Made Under the Tax Escalation Clause for Leases in the District      06/04/85
               of Columbia
     A50452    Review of Fiscal Year 1984 Statistics Included in the Annual Summary of Incidents       06/04/85
               Occurring in Buildings Controlled by GSA, Region 9
     A50452    Validation of Fiscal Year 1984 Statistics Included in the Annual Summary of Incidents   06/05/85
               Occurring in Buildings Controlled by GSA
     A50452    Validation of the Fiscal Year 1984 Statistics Included in the Annual Summary of         06/06/85
               Incidents Occurring in Buildings Controlled by GSA
     A50452    Validation of Fiscal Year 1984 Statistics Included in the Annual Summary of Incidents   06/06/85
               Occurring in Buildings Controlled by GSA, Region 5
     A50452    Validation of FY 1984 Statistics Included in the Annual Summary of Incidents Oc-        06/07/85
               curring in Buildings Controlled by the General Services Administration
     A5049 I   Preaward Lease Review: Fairmont Building, 7735 Old Georgetown Road, Bethesda,           06/10/85
               Maryland, Lease No. GS-I1B-50040
     A50282    Review of Region 8 Inspection Services Contracts                                        06/14/85
     A50460    Hotline Complaint on Region 4's A-76 Mechanical Services Study, Jacksonville, Florida   06/18/85
     A50026    Review of Allegations of Wrongdoing in the Federal Protection Service Division's        06/19/85
               Security System Program
     A50452    Review of OffenselIncident Statistics Reported by Region 6 Federal Protection and       06/19/85
               Safety Division for Fiscal Year 1984
     A50466    Review of Roof Problems in St. Thomas, VI                                               06/20/85
     A50452    Verification of Federal Protection and Safety Division's Operations Activity Reports,   06/21185
               Region 8
     A30184    Review of Repair and Alterations of Government-Owned Space                              06/24/85
     A50493    Pre award Lease Review: 1221 Broadway, Oakland, CA, Lease No. GS-09B-70395              06/24/85
     A50452    Review of National Capital Region's FY 1984 Offense Statistics Included in the Annual   06/26/85
               Summary of Incidents Occurring in Buildings Controlled by GSA
     A50488    Pre award Lease Review: Judiciary Center, 555 4th Street, N.W., Washington, D.C.        06/26/85
     A50511    Pre award Lease Review: Meadows East Building, 6300 Security Boulevard, Wood-           06/26/85
               lawn, MD, Lease No. GS-03B-50032
     A50508    Preaward Lease Review: 926 Taylor Station Road, Columbus, Ohio, Lease No. GS-           07/01l85
               05B-14318
     A40518    Review of Administration of Contract No. GS-07B-31283, Hogan Construction Com-          07/05/85
               pany, Incorporated
     A50346    Interim Report on Review of Polychlorinated Biphenyls                                   07/05/85
     A50514    Pre award Lease Review: 3835 N.E. Expressway, Atlanta, Georgia, Lease No. GS-04B-       07/05/85
               25458
     A50515    Review of Controls Over Pay Telephones                                                  07/09185
     A50452    Validation of the FY 1984 Statistics Included in the Annual Summary of Incidents        07/11185
               Occurring in Buildings Controlled by the General Services Administration
     A50381    Preaward Lease Review (Lease Extension): 1009 Cherry Street, Kansas City, Missouri,     07/l6/85
               Lease No. GS-06B-28085
40
A50519   Review of Pay Telephone Receipts and Collections                                     07/17/85
A50452   Validation of FY 1984 Statistics Included in the Annual Summary of Incidents Oc-     07/23/85
         curring in Buildings Controlled by GSA in Fort Worth, Texas
A50394   Review of Concession Contracts, Region 2                                             07/24/85
A40795   Review of EI Paso, Texas, Federal Building Construction Inspection Services          07/30/85
A50564   Pre award Lease Review: Cafritz Building, 1625 Eye Street, N.W., Washington, D.C.,   07/30/85
         Lease No. GS-lIB-50044
A50283   Review of the Interior Lighting System and Heating System at the Federal Building    07/3l/85
         and Courthouse, San Jose, California, Region 9
A50512   Preaward Lease Review: 222 North Sepulveda Boulevard, El Segundo, California,        08/05/85
         Lease No. GS-09B-85185
A40284   Review of Energy Conservation and Lighting Levels in Leased Space, Region 2          08/06/85
A50574   Pre award Lease Review (Lease Extension): 31 St. James Avenue, Boston, MA, Lease     08/06/85
         No. GS-OIB(PRA)-03242(NEG)
A50575   Preaward Lease Review (Lease Extension): 31 St. James Avenue, Boston, MA, Lease      08/06/85
         No. GS-OlB(PRA)-03156(NEG)
A40824   Review of Golden Gate Field Office, Region 9                                         08/07/85
A50510   Review of Rent Credit, Lease No. GS-09B-70395, 1221 Broadway, Oakland, California    08/08/85
A50218   Review of Buildings Management Operations, New Orleans, Louisiana, Region 7          08/16/85
A50218   Review of Buildings Management Operations, Austin, Texas, Region 7                   08/16/85
A50218   Review of Buildings Management Operations, Laredo, Texas                             08/l9/85
A50218   Review of Buildings Management Operations, San Antonio, Texas                        08/19/85
A50218   Review of Buildings Management Operations, Albuquerque, New Mexico                   08/19/85
A50218   Review of Buildings Management Operations, Fort Worth, Texas                         08/19/85
A50218   Review of Buildings Management Operations, Little Rock, Arkansas                     08/19/85
A40795   Review of Region 9 Inspection Services Contracts                                     08/20/85
A50594   Preaward Lease Review: Caton Research Center, 3920 Vero Road, Baltimore, MD          08/20/85
A50346   Interim Report on PCB Audit                                                          08/2l/85
A50609   Preaward Lease Review: 128-140 York Avenue, Randolph, MA, Lease No. GS-OlB(PEL)-     08/22/85
         03476(NEG)                                        .
A50583   Preaward Lease Review: 525 Market Street, San Francisco, CA, Lease No. GS-09B-       08/27/85
         73066
A50603   Preaward Lease Review: 3225 North Central Avenue, Phoenix, Arizona, Lease No.        08/30/85
         GS-09B-85189
A50009   Review of Region 4's Lease Enforcement Procedures: Lease No. GS-04B-22462, Per-      09/04/85
         ryhill Office Park, 3815 Interstate Court, Montgomery, Alabama
A50009   Review of Region 4's Lease Enforcement Procedures: Lease No. GS-04B-20371            09/04/85
A50382   Review of Corrective Actions Taken With Regard to Health Problems at the Hubert      09/04/85
         Humphrey Building
A50587   Proposed Award of Lease: Lease No. GS-04B-24302 Mutual Plaza Building, Durham,       09/04/85
         North Carolina
A50619   Preaward Lease Review: Hampton Plaza, 300 East Joppa Road, Towson, MD                09/09/85
A50622   Preaward Lease Review: Matomic Building, 1717 H Street, N.W., Washington, D.C.       09/11/85
A40168   Review of the Implementation of Federal Protection and Safety Recovery Plan          09/12/85
A50346   Review of Controls Over the Identification and Documentation of Polychlorinated      09/12/85
         Biphenyls

                                                                                                         41
     AS0630    Preaward Review of Lease Extension: Lease No. GS-09B-06314, 1960 Addison Street,         09/12/85
               Berkeley, California
     AS0346    Advisory Report on Review of Controls Over the Identification, Inspection, and Doc-      09/13/85
               umentation of Polychlorinated Biphenyls
     AS0634    Preaward Review of Lease Extension: Lease No. GS-09B-75262, 100 Van Ness Avenue,         09/16/85
               San Francisco, California
     AS0179    Review of New Construction and Major Repair and Alteration Projects, Region 10           09/17/85
     AS0633    Preaward Lease Review: Oak Meadows Building, 6340 Security Boulevard, Wood-              09/18/85
               lawn, MD
     A50306    Review of the Miami, Florida, Buildings Management Field Office, Region 4                09/19/85
     A50009    Review of Region 4's Lease Enforcement Procedures: Lease No. GS-04B-2067S, Pres-         09/23/85
               idential Park, Atlanta, Georgia
     A50009    Review of Region 4's Lease Enforcement Procedures: Lease No. GS-04B-211S4, 1418          09/23/85
               Moreland Avenue, Atlanta, Georgia
     A40779    Review of the Administration of Cafeteria Contracts, National Capital Region             09/25/85
     A50418    Postaward Lease Review: Lease Extension, 3030       ~orth   Central Avenue, Phoenix,     09/26/85
               Arizona
     A50561    Letter Report on a Need for More Specific Language Regarding the Confidentiality of      09/30/85
               Government Bid Estimates
     A5065S    Preaward Lease Review: One Congress Center, Chicago, IL, Lease No. GS-05B-14252          09/30/85


     FSS       Contract Audits
     AS0081    Audit of Multiple Award Schedule Contract, Verification of Commerciality Data: Hew-      04/09/85
               lett-Packard Company, Contract No. GS-00F-70537
     A50281    Preaward Audit of Cost or Pricing Data: Davis Furniture Industries, Inc., Solicitation   04/10/85
               No. FNP-S2-17S5-N-ll-IS-84
     A50271    Preaward Audit of Cost or Pricing Data: Stack-On Products Company, Solicitation          04/1l/85
               No. FEP-CN-F0258-1-N
     A50272    Preaward Audit of Multiple Award Schedule Contract: Dennison Monarch Systems,            04/12/85
               Inc., Solicitation No. FNP-C4-1439-N-8-I6-84
     A503S2    Preaward Audit of Cost or Pricing Data: Kass Management Services, Inc., Solicitation     04/12/85
               No. RFP-FSS-9FCG-85-02251
     A50168    Preaward Audit of Multiple Award Schedule Contract: Beckman Instruments, Inc.,           04/15/85
               Altex Scientific Operations, Solicitation No. FGS-Z3-36442-N-Il-23-84
     A4063S    Posta ward Audit of Multiple Award Schedule Contract: Philip A. Hunt Chemical            04/16/85
               Corporation, Contract No. GS-00S-41127 for the Period 2/10/82 to l/3l/84
     AS0270    Pre award Audit of Multiple Award Schedule Contract: Nicolet Instrument Corpora-         04/17/85
               tion, Solicitation No. FGS-K-36415-N
     AS0201    Preaward Audit of Multiple Award Schedule Contract: AMF Incorporated, Solicitation       04/18/85
               No. lOPN-NLS-0208
     A50401    Audit Report on Evaluation of Price Proposal: Sutron Corporation, Solicitation No.       04/19/85
               FGS-H-3641O-N-6-11-84
     AS0322    Preaward Audit of Cost or Pricing Data: Crestwood Furniture Company, Solicitation        04/22/85
               No. FNP-S2-1755-N-1l-15-84
     AS0404    Pre award Audit of Cost or Pricing Data: Monsanto CompanylWildfire Division, So-         OS/03/85
               licitation No. GS-08-1544
     A50293    Preaward Audit of Multiple Award Schedule Contract: UTI Instruments Company,             05/06/85
               Solicitation No. FGS-Z3-36442-N-U-23-84
     A4046 I   Postaward Audit of Multiple Award Schedule Contract: Rawlings Sporting Goods             05/09/85
               Company, St. Louis, Missouri, Contract No. GS-lOS-44898 for the Period 5/l/82 to
42             4/30/83
A50074   Posta ward Audit of Multiple Award Schedule Contract: Rawlings Sporting Goods             05/09/85
         Company, St. Louis, Missouri, Contract No. GS-01S-08136 for the Period 5/l/82 to
         4/30/83
A50383   Postaward Audit of Multiple Award Schedule Contract: Stacor Corporation, Contract         05/17/85
         No. GS-00F-68391 for the Period 7/9/84 to 3/3l/85
A50416   Audit of Progress Payment: Pierce Manufacturing Inc., Contract No. GS-00F-73103           OS/23/85
A50417   Audit of Progress Payment: Pierce Manufacturing Inc., Contract No. GS-00F-73047           OS/23/85
A50443   Preaward Audit of Cost or Pricing Data: Chemonics Industries, Inc., Solicitation No.      OS/28/85
         GS-08-1544
A50321   Preaward Audit of Cost or Pricing Data: LoDal, Inc., Solicitation No. 9FCO-OLJ-M-         OS/29/85
         A 1068/84
A50421   Postaward Audit of Contract Billings: Northern Virginia Van Company, Inc.,' Contract      06/04/85
         No. GS-OWF-52909 for the Period 8/l/84 to 7/3l/85
A50388   Preaward Audit of Cost or Pricing Data: Coyne Mattress Co., Ltd., Solicitation No.        06/05/85
         9FCG-OSH-N-A0845/85
A50410   Preaward Audit of Cost or Pricing Data: MCC Powers, Solicitation No. RFP-OPR-             06/14/85
         9FCG-85-02218
A50498   Review of Proposal for Initial Pricing Under RFP No. ATIFS 19613, Submitted by:           06/19/85
         Christie Electric Corporation, Torrance, California             .
A50385   Posta ward Audit of Multiple Award Schedule Contract: Stacor Corporation, Contract        06/2l/85
         No. GS-00F-68392 for the Period 7/9/84 to 3/3l/85
A50426   Pre award Audit of Multiple Award Schedule Contract: John Savoy & Son, Inc., So-          06/2l/85
         licitation No. FNPS-S2-1755-N-1l-15-84
A50496   Preaward Audit of Cost or Pricing Data: Products Research and Chemical Corporation,       06/25/85
         Glendale, California, Solicitation No. 6PR-W-Jl402-B3-N
A50079   Postaward Audit of DuBois Chemicals, a Division of Chemed, Inc., Contract Nos. GS-        07/10/85
         09S-40648, GS-09S-41263, GS-09S-41920, and GS-09S-42517 for the Period 6/17/80
         to 5/3l/84
A50398   Preaward Audit of Cost or Pricing Data: Melrose Mattress Co., Inc., Solicitation No.      07/23/85
         9FCG-OSH-N-A0845/85
A50548   Pre award Audit of Multiple Award Schedule Contract: Senstar, Inc., Solicitation No.      07/29/85
         7PM-526781R517FC
A50573   Report on Review of FFP Proposal for Initial Pricing in Response to Solicitation No.      07/29/85
         FGS-X7-36444-N: Systron Donner Corporation, Instrument Division, Concord,
         California
A50547   Preaward Audit of Multiple Award Schedule Contract: Aritech Corp., Solicitation No.       08/0l/85
         7l?M-526781R517FC
A50582   Report on Evaluation of Pricing Proposal in Response to RFP No. FGS-X7-36444-N-           08/05/85
         1-30-85 Submitted by: ARGOSystems, Inc., Sunnyvale, California
A50500   Preaward Audit of Cost or Pricing Data: Applied Technology Associates, Inc., Mod-         08/09/85
         ification to Contract No. GS-09S-50000 .
A50529   Preaward Audit of Cost or Pricing Data: Haneraft Furniture, Inc., Solicitation No. FNP-   08/15/85
         S2-1755-N-1l-15-84
A50444   Preaward Audit of Cost or Pricing Data: Air Logistics Corporation, Solicitation No.       08/16/85
         8FCO-H3-51732
A50132   Postaward Audit of Multiple Award Schedule Contract: Flow Laboratories, Inc., Con-        08/22/85
         tract No. GS-00S-45268 for the Period 7/12/82 to 5/3l/83
A50133   Postaward Audit of Multiple Award Schedule Contract: Flow Laboratories, Inc., Con-        08/22/85
         tract No. GS-00S-45268(Rl) for the Period 9/2/83 to 5/3l/84
A50134   Postaward Audit of Multiple Award Schedule Contract: Flow Laboratories, Inc., Con-        08/22/85
         tract No. GS-00S-45268(R2) for the Period 6/l/84 to 1l/30/84
                                                                                                              43
     A50473   Preaward Audit of Change Order Proposal: Southwestern Bell Telecommunications,           08/22/85
              Inc., Overland Park, Kansas, Contract No. GS-06F-12784
     A50613   Review of Preaward Price Proposal: Solicitation No. 7PM-52678-R5-7FC, Monaco             08/26/85
              Enterprises, Inc., Spokane, Washington
     A50615   Report on Review of Proposal for Initial Pricing: Finishing Enterprises, Inc., Solici-   08/27/85
              tation No. FGA-21-XU306-N
     A40892   Postaward Audit of Multiple Award Schedule Contract: Breuer Electric Manufacturing       08/29/85
              Company, Contract No. GS-09S-41672 for the Period 4/16/82 tu 2/28/83
     A40893   Postaward Audit of Multiple Award Schedule Contract: Breuer Electric Manufacturing       08/29/85
              Company, Contract No. GS-09S-42195 for the Period 3/1/83 to 2/29/84
     A50524   Preaward Audit of Multiple Award Schedule Contract: Wells Fargo Security Products,       08/29/85
              Solicitation No. 7PM-52678-R5-7FC
     A40858   Postaward Audit of Multiple Award Schedule Contract: EBSCO Industries, Inc., Con-        09/05/85
              tract No. GS-00S-38134 for the Period 1/29/82 to 9/30/83
     A50543   Pre'lward Audit of Multiple Award Schedule Contract: Canon U.S.A., Inc., Solicitation    09/20/85
              No. FGE-A7-75347-N-5-17-85
     A50530   Preaward Audit of Cost and Pricing Data: Joerns Furniture Company, Contract No.          09/24/85
              FNPS-Sl-1526-N-4-1-85
     A50598   Preaward Audit of Multiple Award Schedule Contract: Campbell Scientific, Inc., So-       09/24/85
              licitation No. FGS-Y2-39000-N-6-25-85
     A50535   Preaward Audit of Multiple Award Schedule Contract: International Research As-           09/26/85
              sociates, Inc., Solicitation No. 7PM-52678/R5!7FC
     A50661   Audit Report on Evaluation of Cost Plus Fixed Fee Proposal: Computer Sciences            09/26/85
              Corporation, Applied Technology Company, Solicitation No. 9FCG-OSD-N-A0832/84


     FSS      Internal and Inspection Audits
     A40150   Review of the Nonpowered Tools Procurement Division, Federal Supply and Services,        04/19/85
              Central Office
     A50259   Observation of Physical Inventory at Customer Supply Center, Chicago, Illinois           05/03/85

     A50124   Review of Material Weights, Region 5                                                     05/06/85

     A40770   Review of the Discontinuance of the Dispatch Vehicle Program                             05/13/85

     A40318   Review of the Quality Approved Manufacturer Agreement Program in Region 2                OS/23/85

     A50023   Review of Customer Supply Center Operations, Auburn, Washington                          06/20/85

     A40749   Review of the Operations at the Franconia Supply Distribution Facility                   06/21/85

     A50522   Self-Service Store Inventory Observation                                                 07/03/85

     A40797   Review of Chicago Fleet Management Center Operations, Region 5                           07/19/85

     A40778   Review of Customer Supply Center Operations, Region 8                                    07/23/85

     A50408   Review of Region 6 Solicitation No. 6KM-84004-CG-N for Telecommunications Cus-           07/24/85
              tomer Premise Equipment and Services
     A50254   Review of Physical Inventory Shortage, Chicago Self-Service Store, Region 5              07/31/85

     A50058   Review of Personal Property Services Branch, Federal Supply and Services, Region 5       08/06/85

     A50353    Review of Norfolk Customer Supply Center Operations                                     08/19/85

     A50145    Review of Physical Inventory at the Customer Supply Center, Stockton, California         08/27/85

     A50536    Review of the Federal Supply and Services Method of Supply Model                         09/18/85


     OIRM Contract Audits
     A50370    Report on Review of Initial Price Proposal Submitted by: Systems Management Amer-        04/01/85
44             ican Corporation, Norfolk, Virginia, Solicitation No. GSC-KESA-G-00029-N-l-1O-85
A50261   Preaward Audit of Multiple Award Schedule Contract: Cohu, Inc., Electronics Divi-          04/04/85
         sion, Solicitation No. GSC-KESCV-00030-N-12-4-84
A50378   Preaward Audit of Cost or Pricing Data: Trak Systems, Division of Trak Microwave           04/04/85
         Corporation, Solicitation No. GSC-KESA-G-00028-N-12-11-84
A50317   Pre award Audit of Cost or Pricing Data: Bedford Research Associates, Inc., Solicitation   04/08/85
         No. KECS-85-005
A50277   Preaward Audit of Multiple Award Schedule Contract: Datagraphix, Inc., Solicitation        04/11/85
         No. GSC-KESA-G-00028-N-12-11-84
A50393   Report on Review of Proposal for Initial Pricing Under GSA Solicitation No. GSC-           04/12/85
         KESR-00032-N-12-12-84 Submitted by: Datatape Incorporated, a Kodak Company,
         Pasadena, California
A40807   Audit of Termination Proposal: Dataflow Technologies, Incorporated, Subcontractor          04/18/85
         to Paradyne Corporation, Contract No. GS-00C-40018
A50419   Audit Report on Evaluation of Price Proposal: International Technology Corporation,        04/29/85
         RFP No. GSC-KESA-00029-N-1-1O-85
A50305   Preaward Audit of Cost or Pricing Data: Group Operations, Inc., Solicitation No.           05/07/85
         KECS-85-005
A50303   Preaward Audit of Cost or Pricing Data: OAO Corporation, Solicitation No. KECS-            05/08/85
         85-003
A50304   Preaward Audit of Cost or Pricing Data: Vanguard Technologies Corporation, Solic-          05/09/85
         tation No. KECS-85-005
A40863   Postaward Audit of Multiple Award Schedule Contract: Wang Laboratories, Inc., Con-         05/13/85
         tract No. GS-00C-03447 for the Period 10/1/82 to 1/31/84
A50123   Postaward Audit of Multiple Award Schedule Contract: Wang Laboratories, Inc., Con-         05/13/85
         tract No. GS-00C-02930 for the Period 10/lf81 to 9/30/82
A50450   Audit Report on Evaluation of Firm Fixed Price Proposal: PRC Government Infor-             05/13/85
         mation Systems, RFP No. KECS-85-003
A50451   Audit Report on Evaluation of Revised Price Proposal: Science Management Corpo-            05/13/85
         ration (SMC), National Data Systems, RFP No. KECS-85-003
A50457   Audit Report on Evaluation of Firm Fixed Price Proposal: PRC Government Infor-             OS/21/85
         mation Systems, RFP No. KECS-85-009
A50458   Audit Report on Evaluation of Firm Fixed Price Proposal: Computer Sciences Cor-            OS/22/85
         poration, RFP No. GSC-KECP-M-00002-N-7-2-84
A50482   Review of Proposal for Initial Pricing Under Solicitation No. GSC-KESCR-00032-N-           05/31/85
         12-12-84: Broadcast Microwave Services, Inc.
A50434   Preaward Audit of Multiple Award Schedule Contract: NCR Comten, Inc., Solicitation         06/06/85
         No. GSC-KESA-C-00030-N
A50441   Preaward Audit of Multiple Award Schedule Contract: Sorbus, Inc., Solicitation No.         06/07/85
         GSC-KESA-C-00030-N-4-11-85
A50501   Audit Report on Evaluation of Price Proposal: Watkins-Johnson Company, RFP No.             06/14/85
         GSC-KESCR-00033-N-5-7-85
A50506   Audit Report on Evaluation of Initial Price Proposal: Computer Data Systems, Incor-        06/17/85
         porated, RFP No. KECS-85-009
A50399   Postaward Audit of Multiple Award Schedule Contract: D. P. Enterprises, Contract           06/19/85
         No. GS-00K-8401S5631 for the Period 10/1/83 to 9/30/84
A50333   Pre award Audit of Multiple Award Schedule Contract: Sony Corporation of America,          06/20/85
         Solicitation No. GSC-KESCV -00030-N -12-4-84
A50446   Preaward Audit of Multiple Award Schedule Contract: Northern Telecom, Inc., Min-           06/28/85
         netonka, Minnesota, Solicitation No. GSC-KESA-C-00030-N-4-U-85
A50184   Postaward Audit of Multiple Award Schedule Contract: Apollo Computer, Inc., Con-           07/05/85
         tract No. GS-00K-8401S5700 for the Period 10/1/83 to 9/30/84
                                                                                                               45
     A50430        Pre award Audit of Multiple Award Schedule Contract: Prime Computer, Inc., Solic-      07/U/85
                   itation No. GSC-KESA-C-00030-N-4-11-85
     A50459        Preaward Audit of Multiple Award Schedule Contract: Paradyne, Inc., Solicitation       07/16/85
                   No. GSC-KESA-C-00030-N-4-11-85
     A50483        Preaward Audit of Multiple Award Schedule Contract: Control Data Corporation,          07/16/85
                   Education Company, Solicitation No. GSC-KECT-00008-N-4-10-85
     A50550        Report on Evaluation of Firm Fixed Price Proposal Under Solicitation No. GSC-KESCR-    07/16/85
                   00032-N: Microcom Corporation
     A50389        Preaward Audit of Cost or Pricing Data: Ampex Corporation, Data Systems Division,      07/17/85
                   Solicitation No. GSC-KESCR-00032-N-12-12-84
     A50468        Preaward Audit of Multiple Award Schedule Contract: Symbolics, Inc., Solicitation      07/18/85
                   No. GSC-KESA-C-00030-N-4-11-85
     A50435        Preaward Audit of Multiple Award Schedule Contract: A. B. Dick Company, Solici-        07/19/85
                   tation No. GSC-KESA-C-00030-N
     A50453        Preaward Audit of Multiple Award Schedule Contract: Control Data Corporation,          07/24/85
                   Cybernet Services, Solicitation No. GSC-KECT-A-00008-N
     A50456        Pre award Audit of Multiple Award Schedule Contract: CPT Corporation, Solicitation     07/26/85
                   No. GSC-KESA-C-00030-N-4-11-85
     A50572        Report on Review of Proposal for Initial Pricing Under RFP No. GSC-KECP-M-00002-       07/29/85
                   M-7-2-84: System Development Corporation, Camarillo, California
     A50332        Pre award Audit of Multiple Award Schedule Contract: Sony Corporation of America,      08/05/85
                   Solicitation No. GSC-KESCV-00030-N-12-4-84
     A50447        Preaward Audit of Multiple Award Schedule Contract: System Development Corpo-          08/07/85
                   ration, McLean, Virginia, Solicitation No. GSC-KESA-C-00030-N-4-11-85
     A50505        Pre award Audit of Multiple Award Schedule Contract: Gould, Inc., Computer Systems     08/08/85
                   Division, Solicitation No. GSC-KESA-C-00030-N-4-11-85
     A50546        Pre award Audit of Multiple Award Schedule Contract: Emulex Corporation, Solici-       08/09/85
                   tation No. GSC-KESA-C-00030-N-4-11-85
     A50487        Preaward Audit of Multiple Award Schedule Contract: Terminals Unlimited, Inc.,         08/13/85
                   Solicitation No. GSC-KESA-C-00030-N-4- I 1-85
     A50593        Audit Report on Evaluation of Cost Plus Fixed Fee Proposal: Advanced Technology,       08/13/85
                   Inc., Solicitation No. KECS-85-001
     A50420        Preaward Audit of Multiple Award Schedule Contract: NBI, Inc., Solicitation No. GSC-   08/14/85
                   KESA-C-00030-N-4-11-85
     2S202170007   Postaward Audit of Multiple Award Schedule Contract: Intel Systems Corporation,        08/14/85
                   Austin, Texas, Contract No. GS-00C-02519 for the Period 1O/l/80 to 9/30/81
     2S202170007   Postaward Audit of Multiple Award Schedule Contract: Intel Systems Corporation,        08/14/85
                   Austin, Texas, Contract No. GS-00C-03038 for the Period 10/l/81 to 9/30/82
     A50507        Preaward Audit of Multiple Award Schedule Contract: General Electric Company,          08/15/85
                   Mobile Communications Business Division, Solicitation No. GSC-KESCR-00033-N
     A50442        Pre award Evaluation of Pricing Proposal: Xerox Corporation, Solicitation No. GSC-     08/19/85
                   KESA-C-00030-N -4-11-85
     A50429        Preaward Audit of Multiple Award Schedule Contract: Digital Equipment Corpora-         08/20/85
                   tion, Solicitation No. GSC-KESA-C-00030- N-4-11-85
     A50497        Pre award Audit of Multiple Award Schedule Contract: Wang Laboratories, Inc., So-      08/28/85
                   licitation No. GSC-KESA-C-00030-N-4-11-85
     A50334        Preaward Audit of Multiple Award Schedule Contract: Sony Corporation of America,       08/29/85
                   Solicitation No. GSC-KESCV-00030- N -12-4-84
     A50568        Preaward Audit of Multiple Award Schedule Contract: Relational Technology, Inc.,       08/30/85
                   Solicitation No. GSC-KESA-C-00030- N -4- 11-85
     A50544        Preaward Audit of Multiple Award Schedule Contract: The Cambridge Systems Group,       09/04/85
46                 Inc., Solicitation No. GSC-KESA-C-00030-N-4-U-85
A50632   Postaward Audit of Multiple Award Schedule Contract: Symbolics, Inc., Contract No.      09/06/85
         GS-00K-84-01-S5563 for the Period 10/1184 to 9/30/85
A50405   Preaward Audit of Multiple Award Schedule Contract: Telex Computer Products,            09/16/85
         Solicitation No. GSC-KESA-C-00030-N-4-11-85
A50406   Pre award Audit of Multiple Award Schedule Contract: Telex Computer Products,           09/16/85
         Incorporated, Solicitation No. GSC-KESA-C-00030- N-4-11-85
A50432   Preaward Audit of Multiple Award Schedule Contract: Philips Information Systems,        09/18/85
         Solicitation No. GSC-KESA-C-00030-N-4-11-85
A50533   Preaward Audit of Multiple Award Schedule Contract: Applied Data Research, Inc.,        09118/85
         Solicitation No. GSC-KESA-C-00030-N-4-11-85
A50494   Preaward Audit of Multiple Award Schedule Contract: Plessey Peripheral Systems,         09/19/85
         Inc., Solicitation No. GSC-KESA-C-00030-N-4-11-85
A50532   Preaward Audit of Multiple Award Schedule Contract: Perkin-Elmer Corporation,           09/20/85
         Solicitation No. GSC-KESA-C-00030-N-4-11-85
A50509   Preaward Audit of Multiple Award Schedule Contract: Compugraphic Corporation,           09/25/85
         Solicitation No. GSC-KESA-C-00030-N-4-11-85
A50665   Audit Report on Evaluation of Firm Fixed Price Proposal: Vitro Corporation, RFP No.     09/27/85
         GSC-OIT-50B
A50617   Preaward Audit of Cost or Pricing Data: OAO Corporation, RFP No. 1985.DLD-042           09/30/85
A40311   Report Under Investigation                                                              09/30/85


OIRM Internal and Inspection Audits
A30831   Review of Computer Security and Firesafety for the ADP Facilities in Region 4           06/27/85
A40727   Review of Operations of the Region 6 Contract Services Program                          07/10/85
A50309   Review of Region 4's Implementation of Office Automation (C3)                           09/12/85


Other
GSA   Contract Audits
A50362   Audit of Bid Protest Claim: Lusardi Construction Company, Project No. NCA 00900         05/15/85
A50060   Preaward Audit of a Claim for Increased Costs: Pathman Construction Company,            05/30/85
         Contract No. GS-05BC-6637A
A50590   Report on Evaluation of Price Proposal for Initial PriCing Under Modification to Con-   08/12/85
         tract No. GS-0083-DXXC-0006: Brush Wellman, Incorporated, Beryllium Products
         Group, Metal and Minerals Division


Other
GSA   Internal and Inspection Audits
A50369   Review of the Seattle Fleet Management Center, Imprest Fund                             04/12/85
A50390   Review of the Santa Rosa Field Office, Imprest Fund, Region 8                           04/18/85
A50068   Review of the Regional Operations of the Office of Project Control and Oversight        04/19/85
         (OPCO), Region 8
A40866   Review of the Use of General Supply Fund for the Acquisition of Operating and           04/25/85
         Administrative Equipment
A40900   Review of Regional Administrative Services                                              04/26/85
A50363   Review of the Attempted Sale of the Hingham Supply Depot                                05/02/85
A50323   Review of Imprest Fund, Battle Creek, Michigan Field Office, Region 5                   05/22/85
A40900   Review of Regional Administrative Services Division, Region 5                           05/31/85
                                                                                                            47
     A40714       Survey of Cash Management                                                             06/12/85
     A40743       Review of Selected Personnel Data                                                     06/20/85
     A50192       Interim Report - Funding for Contracts With Commercial Tranportation Audit Firms      07/09/85
     A50258       Review of Imprest Fund, Indianapolis, Indiana Field Office, Region 5                  07/09/85
     A40494       Review of the Role of the Comptroller                                                 07/11185
     A50215       Review of GSA Billings to Federal Emergency Management Agency                         07/30/85
     A50310       Review of Internal Controls at the Central Office Imprest Fund                        08/22/85
     A50238       Review of the Disposal of Excess Mercury, Antimony, Vegetable Tannin Extracts, and    08/29/85
                  Mica
     A40106       Review of Contract Clearance Activities, Office of Acquisition Management and Con-    09/20/85
                  tract Clearance, Central Office


     Non-
     GSA          Contract Audits
     A50298       Preaward Audit of Cost or Pricing Data: Gilbane/Jackson Joint Venture, Contract No.   04/03/85
                  PA-5PC-003
     A50040       Audit of Cost Reimbursable Contract: Turner Construction Company, Contract No.        04/04/85
                  DOC-81-ABC-02265
     2H204777707 Postaward Audit of Multiple Award Schedule Contract: Abbott Laboratories, Phar-        04/25/85
                 maceutical Products Division, Contract Nos. V797P5819E and V797P5474F


     Non-
     GSA          Internal and Inspection Audits
     A40154       Review of GSA's Delegation of Building Operations, Frances Perkins Building           07/26/85

     A40154       Review of GSA's Delegation of Nassif Building Operations                              08/21185




48
APPE                               II-DELINQUENT                                      EBTS
GSA's Office of Comptroller provided the information presented        ized in GSA's Fort Worth, Texas, Regional Finance
herein.                                                               Division .
                                                                   • In August 1985, GSA submitted the initial "Annual
                                                                     Credit Management Improvement Plan" required
                                                                     by the OMB Circular A-129, Managing Federal
                                                                     Credit Programs. OMB Circular A-129 prescribes
GSA Efforts to Improve                                               that each Government agency shall establish a com-
                                                                     prehensive credit management program to: assure
Debt Collection                                                      collection of all receivables; enable management to
                                                                     evaluate credit policies; provide efficient and ef-
During the period April 1, 1985 through September 30,                fective account servicing; and improve the accuracy
1985, GSA efforts to improve debt collection and reduce              and timeliness of financial reports.
the amount of debt written off as uncollectible focused
on upgrading collections functions, debt management,              • In September 1985, the GSA regulations to imple-
and credit reporting. These efforts included the                    ment the Debt Collection Act of 1982, "Collection
following:                                                          of Claims Owed the United States," were pub-
                                                                    lished in the Federal Register (Vol. 50, No. 179) 41
   .. In June 1985, GSA signed agreements with eight                CFR Part 105-55. The Debt Collection Act of 1982
      consumer and three commercial credit reporting                requires that agencies publish regulations in the
      agencies. When the Department ofthe Treasury and              Federal Register before collecting delinquent debts
      the Office of Management and Budget (OMB)                     by administrative offset.
      "Guidelines on Information to Be Reported to Credit
      Reporting Bureaus" are finalized, GSA will de-
      velop procedures to report debtor information to           Non-Federal Accounts
      these 11 credit reporting agencies.
  .. In July 1985, GSA issued updated procedures for
                                                                 Receivable
     processing and collecting third party motor pool            Because GSA utilizes manual reporting systems for
     vehicle claims in compliance with existing GSA              its non-Federal accounts receivable, data for the period
     orders and provisions of the Debt Collection Act of         April I, 1985 through September 30, 1985 were not
     1982. Effective October I, 1985, the accounts re-           available at the time of publication of this report. Six-
     ceivable responsibility and procedures for process-         month data for the period December 31, 1984 through
     ing third party motor pool claims will be central-          June 30, 1985 are therefore provided.


                                                            A.s of                 A.s of
                                                       December 31, 1984        June 30, 1985         Difference

      Total Amounts
        Due GSA .......................... .               $81,194,408           $65,449,915         ($15,744,493)
      Amount Delinquent .................... .             $18,391,869           $19,628,235          $ 1,236,366
      Total Amount Written
        Off as Uncollectible
        Between 12/31/84
        and 6/30/85 ........................ .             $306,684




                                                                                                                             49
     APPE   IX ill-SUMMARY OF OIG
     PERFORMA CE DURING FISCAL
     YEAR 1985
     During Fiscal Year 1985, OIG activities resulted in:       • Civil complaints against 13 individuals, 10 civil
                                                                  settlements, and 10 civil judgments on civil matters
       • 663 audit reports.                                       referred.
       • 21 implementation reviews of internal audit reports.   • 45 case referrals to other Federal and State agencies
                                                                  for further investigation.
       • Recommended cost avoidances and recoveries of
         almost $149 million.                                   • 68 reprimands, 38 suspensions, 3 demotions, and
                                                                  41 terminations of GSA employees.
       • Management commitments to more efficiently use
         almost $137 million.                                   • 6 case referrals recommending suspension of 17
                                                                  contractors.
       • Management commitments to recover funds, court-
         ordered recoveries, and investigative recoveries of    • 34 case referrals recommending debarment of 90
         almost $20.5 million.                                    contractors.
                                                                • 13 contractor suspensions and 69 contractor
       • 624 new investigations opened and 726 cases dosed.       debarments.
       • 70 case referrals (143 subjects) accepted for crim-    • 26 OIG subpoenas.
         inal prosecution and 13 case referrals (18 subjects)
         accepted for civil litigation.                         • 565 legislative matters and 346 regulations and di-
                                                                  rectives reviewed.
       • 59 criminal indictments/informations/complaints
         and 63 successful prosecutions on criminal matters     • 932 Hotline calls and letters, 22 GAO referrals, and
         referred.                                                37 other agency referrals.




5U
Notes
Notes
